Audit Report




OIG-13-047
Report on the Bureau of the Fiscal Service’s Administrative
Resource Center Description of its Financial Management
Services and the Suitability of the Design and Operating
Effectiveness of its Controls for the Period July 1, 2012
to June 30, 2013
August 27, 2013




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               August 27, 2013


            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Report on the Bureau of the Fiscal Service’s Administrative
                                   Resource Center Description of its Financial Management
                                   Services and the Suitability of the Design and Operating
                                   Effectiveness of its Controls for the Period July 1, 2012
                                   to June 30, 2013


            I am pleased to transmit the attached Report on the Bureau of the Fiscal Service’s
            Administrative Resource Center (ARC) Description of its Financial Management
            Services and the Suitability of the Design and Operating Effectiveness of its Controls
            for the period July 1, 2012 to June 30, 2013. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an examination of the description of controls, the suitability of the
            design, and the operating effectiveness of the accounting and procurement
            processing, and general computer controls (financial management services) provided
            by ARC to various Federal Government agencies (customer agencies) for the period
            July 1, 2012 to June 30, 2013. The contract required that the examination be
            performed in accordance with generally accepted government auditing standards and
            the American Institute of Certified Public Accountants’ Statement on Standards for
            Attestation Engagements Number 16, Reporting on Controls at a Service
            Organization.

            In its examination, KPMG LLP found in all material respects:

                •   the Description of Controls Provided by ARC fairly presents the financial
                    management services that were designed and implemented throughout the
                    period July 1, 2012 to June 30, 2013,
Page 2


   •   the controls related to the control objectives stated in the description were
       suitably designed to provide reasonable assurance that the control objectives
       would be achieved if the controls operated effectively throughout the period
       July 1, 2012 to June 30, 2013, and customer agencies applied the
       complementary customer agency controls and sub-service organizations
       applied the controls contemplated in the design of ARC’s controls throughout
       the period July 1, 2012 to June 30, 2013, and
   •   the controls tested, which together with the complementary customer agency
       controls and sub-service organizations’ controls, if operating effectively, were
       those necessary to provide reasonable assurance that the control objectives
       were achieved, operated effectively throughout the period July 1, 2012 to
       June 30, 2013.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an examination of the description of controls, the suitability of the design, and
the operating effectiveness of controls in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we
do not express, an opinion on ARC's description of controls, the suitability of the
design of these controls and the operating effectiveness of controls tested.
KPMG LLP is responsible for the attached independent service auditors’ report dated
August 22, 2013, and the conclusions expressed in the report. However, our review
disclosed no instances where KPMG LLP did not comply, in all material respects,
with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment
                   U.S. Department of the Treasury
                     Bureau of the Fiscal Service



                  Administrative Resource Center
                  Financial Management Services
             Accounting and Procurement Processing and
                    General Computer Controls




Report on Administrative Resource Center’s Description of Its Financial
 Management Services and the Suitability of the Design and Operating
                    Effectiveness of Its Controls
            For the Period July 1, 2012 to June 30, 2013
                                       U.S. DEPARTMENT OF THE TREASURY
                                         BUREAU OF THE FISCAL SERVICE
                                       ADMINISTRATIVE RESOURCE CENTER
                                       FINANCIAL MANAGEMENT SERVICES

    REPORT ON ADMINISTRATIVE RESOURCE CENTER’S DESCRIPTION OF ITS
 FINANCIAL MANAGEMENT SERVICES AND THE SUITABILITY OF THE DESIGN AND
               OPERATING EFFECTIVENESS OF ITS CONTROLS

                                                             Table of Contents

Section                                                    Description                                                                             Page

   I. Independent Service Auditors’ Report Provided by KPMG LLP .......................................... 1

  II. Management Assertion ................................................................................................................ 5

 III. Description of Controls Provided by the Administrative Resource Center ........................... 9

        Overview of Operations ................................................................................................................ 10

        Relevant Aspects of the Control Environment, Risk Assessment, and Monitoring...................... 18

                Control Environment ........................................................................................................... 18
                Risk Assessment.................................................................................................................. 18
                Monitoring........................................................................................................................... 18

        Information and Communication .......................................................................................... 20

                Information Systems .......................................................................................................... 20
                Communication .................................................................................................................. 21

        Control Objectives and Related Controls
            The Administrative Resource Center’s control objectives and related controls
            are included in Section IV of this report, “Control Objectives, Related Controls,
            and Tests of Operating Effectiveness.” Although the control objectives and
            related controls are included in Section IV, they are, nevertheless, an integral
            part of the Administrative Resource Center’s description of controls.

        Complementary Customer Agency Controls ................................................................................ 22

        Sub-service Organizations ............................................................................................................ 24

 IV. Control Objectives, Related Controls, and Tests of Operating Effectiveness ....................... 28

        Accounting Processing Controls ................................................................................................... 29

                Obligations .......................................................................................................................... 29
             Disbursements ..................................................................................................................... 33
             Unfilled Customer Orders, Receivables, and Cash Receipts .............................................. 38
             Deposits ............................................................................................................................... 41
             Payroll Accruals .................................................................................................................. 44
             Payroll Disbursements ........................................................................................................ 45
             USSGL ................................................................................................................................ 47
             Accruals............................................................................................................................... 51
             Government-Wide Reporting .............................................................................................. 54
             Administrative Spending ..................................................................................................... 57
             Budget ................................................................................................................................. 59
             Manual Journal Entries........................................................................................................ 62
             Federal Investments ............................................................................................................ 63
             Suppliers and Banks Record Changes ................................................................................. 64

     Procurement Processing Controls ................................................................................................. 65

             Acquisitions and Contracts.................................................................................................. 65
             Sufficiently Funded Requisitions ........................................................................................ 66

     General Computer Controls .......................................................................................................... 67

             System Access .................................................................................................................... 67
             System Changes .................................................................................................................. 77
             Non-Interruptive System Service ........................................................................................ 80
             Records Maintenance .......................................................................................................... 84

V.   Other Information Provided by Administrative Resource Center......................................... 87

     Contingency Planning ................................................................................................................... 88
I.   INDEPENDENT SERVICE AUDITORS’ REPORT
             PROVIDED BY KPMG LLP




                     1
                               KPMG LLP
                               1676 International Drive
                               McLean, VA 22102



                             Independent Service Auditors’ Report


Inspector General, U.S. Department of the Treasury
Deputy Executive Director, Administrative Resource Center

Scope
We have examined the Bureau of the Fiscal Service’s (Fiscal Service) Administrative Resource
Center (ARC) description of its accounting and procurement processing, and general computer
controls used for processing (financial management services) Customer Agencies’ transactions
throughout the period July 1, 2012 to June 30, 2013 (description) and the suitability of the design
and operating effectiveness of controls to achieve the related control objectives stated in the
description. The description indicates that certain control objectives specified in the description
can be achieved only if complementary Customer Agency controls contemplated in the design of
ARC’s controls are suitably designed and operating effectively, along with related controls at the
service organization. We have not evaluated the suitability of the design or the operating
effectiveness of such complementary Customer Agency controls.

ARC uses external service organizations (sub-service organizations). The description in Sections
III and IV includes only the control objectives and related controls of ARC and excludes the
control objectives and related controls of the sub-service organizations. Our examination did not
extend to controls of sub-service organizations.


Service organization’s responsibilities
In Section II, ARC has provided an assertion about the fairness of the presentation of the
description, the suitability of the design and the operating effectiveness of the controls to achieve
the related control objectives stated in the description. ARC is responsible for preparing the
description and for the assertion, including the completeness, accuracy, and method of
presentation of the description and the assertion, providing the services covered by the
description, specifying the control objectives and stating them in the description, identifying the
risks that threaten the achievement of the control objectives, selecting and using suitable criteria,
and designing, implementing, and documenting controls to achieve the related control objectives
stated in the description.

The information in Section V of management’s description of the service organization’s system,
“Other Information Provided by ARC,” is presented by management of ARC to provide
additional information and is not a part of ARC’s description of its system made available to
Customer Agencies during the period July 1, 2012, to June 30, 2013. Information in Section V
has not been subjected to the procedures applied in the examination of the description of the
system and of the suitability of the design and operating effectiveness of controls to achieve the
related control objectives stated in the description of the system, and, accordingly, we express no
opinion on it.




                                                            2
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Service auditors’ responsibilities
Our responsibility is to express an opinion on the fairness of the presentation of the description,
the suitability of the design and the operating effectiveness of the controls to achieve the related
control objectives stated in the description, based on our examination. We conducted our
examination in accordance with attestation standards established by the American Institute of
Certified Public Accountants (AICPA) and applicable Government Auditing Standards issued by
the Comptroller General of the United States. Those standards require that we plan and perform
our examination to obtain reasonable assurance about whether, in all material respects, the
description is fairly presented, the controls were suitably designed and the controls were
operating effectively to achieve the related control objectives stated in the description throughout
the period July 1, 2012 to June 30, 2013.

An examination of a description of a service organization's system and the suitability of the
design and operating effectiveness of the service organization's controls to achieve the related
control objectives stated in the description involves performing procedures to obtain evidence
about the fairness of the presentation of the description and the suitability of the design and the
operating effectiveness of those controls to achieve the related control objectives stated in the
description. Our procedures included assessing the risks that the description is not fairly
presented and that the controls were not suitably designed or operating effectively to achieve the
related control objectives stated in the description. Our procedures also included testing the
operating effectiveness of those controls that we consider necessary to provide reasonable
assurance that the related control objectives stated in the description were achieved. An
examination engagement of this type also includes evaluating the overall presentation of the
description and the suitability of the control objectives stated therein, and the suitability of the
criteria specified by the service organization and described in management’s assertion in Section
II of this report. We believe that the evidence we obtained is sufficient and appropriate to provide
a reasonable basis for our opinion.


Inherent limitations
Because of their nature, controls at a service organization may not prevent, or detect and correct,
all errors or omissions in processing or reporting transactions. Also, the projection to the future
of any evaluation of the fairness of the presentation of the description, or conclusions about the
suitability of the design or operating effectiveness of the controls to achieve the related control
objectives is subject to the risk that controls at a service organization may become inadequate or
fail.




                                                 3
Opinion
In our opinion, in all material respects, based on the criteria described in ARC’s assertion, (1) the
description fairly presents the financial management services that were designed and
implemented throughout the period July 1, 2012 to June 30, 2013, (2) the controls related to the
control objectives stated in the description were suitably designed to provide reasonable
assurance that the control objectives would be achieved if the controls operated effectively
throughout the period July 1, 2012 to June 30, 2013, and Customer Agencies applied the
complementary Customer Agency controls and sub-service organizations applied the controls
contemplated in the design of ARC’s controls throughout the period July 1, 2012 to June 30,
2013, and (3) the controls tested, which together with the complementary Customer Agency
controls and sub-service organizations’ controls referred to in the scope paragraph of this report,
if operating effectively, were those necessary to provide reasonable assurance that the control
objectives stated in the description in Section IV were achieved, operated effectively throughout
the period July 1, 2012 to June 30, 2013.


Description of tests of controls
The specific controls and the nature, timing, extent, and results of the tests are listed in Section
IV.


Restricted use
This report, including the description of tests of controls and results thereof in Section IV, is
intended solely for the information and use of the management of ARC, Customer Agencies of
ARC’s financial management services during some or all of the period July 1, 2012 to June 30,
2013, the U.S. Department of the Treasury Office of Inspector General, the Office of
Management and Budget, the Government Accountability Office, the U.S. Congress, and the
Independent Auditors of ARC’s Customer Agencies, who have a sufficient understanding to
consider it, along with other information including information about controls implemented by
Customer Agencies themselves, when assessing the risks of material misstatements of Customer
Agencies’ financial statements. This report is not intended to be and should not be used by
anyone other than these specified parties.



August 22, 2013
McLean, Virginia




                                                 4
II. MANAGEMENT’S ASSERTION




           5
                    Administrative Resource Center's Assertion
                                  August 22, 2013


We have prepared the description of the Administrative Resource Center 's (ARC)
accounting and procurement processing, and general computer controls used for
processing (financial management services) for user entities of the system during
some or all of the period July 1, 2012 to June 30, 2013, and their user auditors who
have a sufficient understanding to consider the description, along with other
information, including information about controls operated by user entities of the
system themselves, when obtaining an understanding of user entities' information and
communication systems relevant to financial reporting. We confirm, to the best of our
knowledge and belief, that:

a.     The accompanying description in Sections III and IV, fairly presents the ARC
       system made available to user entities of the system during some or all of the
       July 1, 2012 to June 30, 2013 for processing their transactions in the ARC
       financial management systems.

       ARC uses a number of different sub-service organizations for certain transaction
       processing:

           Sub-Service Organization                       Description of Services
     Treasury                                 Central Accounting and Reporting
                                              System (CARS) provides reports and
                                              information of Customer Agencies
                                              Fund Balance with Treasury.

                                              Secure Payment System (SPS) provides
                                              invoice processing.

                                              Internet Payment Platform (IPP) is
                                              used to route invoices for approval and
                                              payment.

                                              Collections Information Repository
                                              (CIR), CARS, and Intra-governmental
                                              Payment and Collection (IPACS) is
                                              used for Statement of Transactions
                                              activity.

                                              TGANet and OTCnet is used to process
                                              checks for deposit.




                                              6
       Sub-Service Organization                      Description of Services
                                         FACTS I and FACTS II is used by
                                         customer agencies for reporting and
                                         producing financial statements.

                                         FedInvest is used to purchase and
                                         redeem Government Account Series
                                         securities.

                                         Treasury Information Executive Repository
                                         (TIER) and Financial Analysis Reporting
                                         System (FARS) is used for producing
                                         Treasury and Department of Homeland
                                         Security financial statements.

Third Party Payroll Service Providers    Processing of payroll transactions
Northrop Grumman Mission Systems         Processing of travel related transactions
General Services Administration          Used for procurement transactions
Oracle Corporation                       Provides hosting services Oracle and PRISM

The description in Sections III and IV includes only the controls and related control
objectives of ARC and excludes the control objectives and related controls of the
services listed above from the respective service organizations. The criteria we used
in making this assertion were that the accompanying description:

  i.    Presents how the systems made available to user entities of the system was
        designed and implemented to process relevant transactions, including:
        1. The types of services provided, including, as appropriate, the
            classes of transactions processed;
        2. The procedures, within both automated and manual systems, by
            which those transactions were initiated, authorized, recorded,
            processed, corrected as necessary, and transferred to the reports
            prepared for user entities;
        3. The related accounting records, supporting information, and
            specific accounts that were used to initiate, authorize, record,
            process, and report transactions; this includes the correction of
            incorrect information and how information was transferred to
            the reports prepared for user entities;
        4. How the systems captured and addressed significant events and
            conditions, other than transactions;
        5. The process used to prepare reports or other information for user
            entities;
        6. Specified control objectives and controls designed to achieve
            those objectives;
        7. Controls that we assumed, in the design of the system, would be
            implemented by user entities, and which, if necessary to achieve
            control objectives stated in the accompanying description, are


                                         7
                   identified in the description along with the specific control
                   objectives that cannot be achieved solely by controls
                   implemented by us; and
                8. Other aspects of our control environment, risk assessment
                   process, information and communication systems (including the
                   related business processes), control activities, and monitoring
                   controls that are relevant to processing and reporting
                   transactions of user entities transactions.

       ii.      Does not omit or distort information relevant to the scope of the Administrative
                Systems

                being described, while acknowledging that the description was prepared to
                meet the common needs of a broad range of user entities and their independent
                auditors and may not, therefore, include every aspect of the Administrative
                Systems that each individual user entity may consider important in its own
                particular environment.

b.          The description includes relevant details of changes to ARC's systems during the
            period covered by the descriptions.

c.          The controls related to the control objectives stated in the description were suitably
            designed and operated effectively throughout the period July 1, 2012 to June 30, 2013
            to achieve those control objectives. The criteria we used in making this assertion were
            that

       i.       The risks that threatened achievement of the control objectives stated in the
                description were identified;
     ii.        The identified controls would, if operated as described, provide reasonable
                assurance that those risks did not prevent the stated control objectives from being
                achieved;
     iii.       The controls were consistently applied as designed, including whether manual
                controls were applied by individuals who have the appropriate competence and
                authority; and
     iv.        Sub-service organizations applied the controls contemplated in the design of
                ARC’s controls

                                                    Sincerely,



                                                    Douglas Anderson, Assistant Commissioner
                                                    Administrative Resource Center




                                                   8
III. DESCRIPTION OF CONTROLS PROVIDED BY THE
         ADMINISTRATIVE RESOURCE CENTER




                    9
OVERVIEW OF OPERATIONS

The Administrative Resource Center (ARC) is now a component of the Fiscal Service, which was
created on October 7, 2012 as a result of the consolidation of two Treasury bureaus, the Financial
Management Service (FMS) and the Bureau of the Public Debt (BPD). Fiscal Service’s ARC has
been a member of the Treasury Franchise Fund (TFF) since August 1998. The TFF was
established by P.L. 104-208 and was made permanent by P.L. 108-447. ARC provides
administrative support services on a competitive, fee-for-service, and full-cost basis. ARC’s
mission is to aid in improving overall government effectiveness by delivering responsive and cost
effective administrative support to its Customer Agencies; thereby, improving their ability to
effectively discharge their mission.

As of June 30, 2013, ARC provided financial management services to approximately 50
Customer Agencies. Financial management services include accounting, budgeting, reporting,
travel, procurement and systems support and platform services. The ARC divisions, branches and
the financial management services that they provide are:

Accounting Services Division (ASD)                Services Provided
Accounting Services Branch 1 (ASB1)               Accounting Services
                                                  Reporting Services

Accounting Services Branch 2 (ASB2)               Accounting Services
                                                  Reporting Services

Accounting Services Branch 3 (ASB3)               Accounting Services
                                                  Reporting Services
                                                  Budget Services

Accounting Services Branch 4 (ASB4)               Accounting Services
                                                  Reporting Services

Accounting Services Branch 5 (ASB5)               Document Processing
                                                  Reporting Services



Accounts Payable Branch (APB)                     Document Processing

Central Accounting Branch (CAB)                   Supplier Table Update and Maintenance
                                                  Record and Reconcile Payroll
                                                  1099 Reporting
                                                  Purchase Card Processing

Program Support Branch (PSB)                      Deposit Services
                                                  SPS Operations




                                               10              Description of Controls Provided
                                                                           by the Fiscal Service
Travel Services Division (TSD)                  Services Provided
Temporary Duty Services Branch (TDSB)           Operate/Maintain GovTrip
                                                Provide GovTrip Training Services
                                                Document Processing
                                                Transaction Processing


Relocation Services Branch (RSB)                Operate/Maintain moveLINQ
                                                Record and process relocations
                                                Tax Reporting


Business Technology Division (BTD)              Services Provided
Customer Service Branch (CSB)                   Provide Financial Management System
                                                Support/Training

Quality Control Branch (QCB)                    Operate/Maintain Financial Management
                                                Systems

Project and Technical Services Branch (PTSB)    Application Development/Analysis/Project
                                                Management


Human Resources Operations Division             Services Provided
(HROD)
Pay and Leave Services Branch (PLSB)            Administer webTA System User Access


Division of Procurement Services (DPS)          Services Provided
Procurement Services Branch 1 (PSB1)            Acquisition Services

Contract Administration Branch                  Acquisition Services

Procurement Services Branch 3 (PSB3)            Acquisition Services




                                               11            Description of Controls Provided
                                                                         by the Fiscal Service
ARC Organizational Chart




          12               Description of Controls Provided
                                       by the Fiscal Service
Accounting Services (provided by the Accounting Services Division)
Accounting Services consists of the following:
   • Recording financial transactions in Oracle Federal Financials (Oracle), including
       appropriation, apportionment, allocations, revenue agreements, accounts receivable,
       collections, commitments, obligations, accruals, accounts payable, disbursements, and
       journal entries.
   • Examining and processing vendor and other employee payments.
   • Examining and processing revenue and other collections.

To maximize efficiencies and enhance Customer satisfaction, ARC has developed financial
management service guidelines for Customer Agencies. The guidelines are available to
customers via ARC’s customer websites. The guidelines provide accounting service overviews,
links to regulations and data submission requirements for the various types of services and
accounting transactions that ARC processes.

Prior to providing accounting services to Customer Agencies, ARC meets with them to learn and
understand the authorizing legislation and mission. This enables ARC to assist them in defining
their accounting needs and to ensure that the accounting services provided comply with
applicable regulations and are able to meet their internal and external reporting needs.

ARC’s automated accounting systems provide for budgeting and funds control at various
organizational and spending levels. The levels used are established based on the Customer
Agency’s authorizing legislation, apportionment level, or their request to control at a lower level
than required by law.

ARC offers commitment accounting to Customer Agencies to better enable them to monitor and
control their funds availability. When applicable, ARC sets aside funds that are available for
obligation based on an approved purchase requisition (PR). In the event that the actual order
amount is greater than the approved purchase request amount, a modification to the PR is
required unless overage tolerances have been pre-approved by the customer agency.

ARC records obligations based on fully executed purchase orders, contracts, training orders or
interagency agreements. Recording the obligations in the accounting system sets aside funds to
ensure that funds are available to pay for the goods or services when provided and billed by
suppliers. All obligations must be approved for funds availability prior to issuance. This is
generally done through processing a PR, but is the responsibility of the Customer Agency if they
elect not to have commitment accounting services. In the event that the invoice amount is greater
than the obligated amount, a modification is required unless overage tolerances have been pre-
approved by the Customer Agency.

Customer Agencies are required to notify ARC when goods/services have been received but not
invoiced by the supplier at the end of a reporting period. Based on the information received,
ARC records expense accruals in the accounting system. The notification process is established
at the Customer Agency level and can include submitting receiving reports or schedules that
detail the items to be accrued.

ARC processes and/or records all Customer Agency disbursements. These include supplier
invoices, purchase card payments, Intra-governmental Payment and Collection (IPAC)
transactions, employee travel reimbursements, and employee payroll.


                                              13                 Description of Controls Provided
                                                                             by the Fiscal Service
The preferred approach for payment of qualifying supplier goods/services is the government’s
purchase card program. Customer Agencies are encouraged to obtain and use a government
purchase card to the greatest extent possible and they are encouraged to participate in ARC's
purchase card program and use Citibank's CitiDirect system. CitiDirect allows Customer Agency
cardholders and approving officials to electronically reconcile, route, approve, and submit the
purchase card statement to ARC for payment.

Generally, ARC Customer Agencies use three methods of receiving and monitoring the status of
supplier invoices. The preferred method, due to efficiencies in processing and approvals from
electronic workflow, requires that supplier invoices be submitted via the Invoice Processing
Platform (IPP). The vendor submits’ their invoice through IPP and the invoice is routed to the
invoice approver designated on the purchase order. The second method occurs when invoices
are submitted directly to ARC, ARC has controls that ensure that all invoices are logged with the
date received, are forwarded to the Customer Agency staff designated on the obligating document
for review and approval, and are monitored to ensure that invoices are returned to ARC for
processing in accordance with the Prompt Payment Act. The third method (under unique
circumstances) requires that supplier invoices be sent directly to the Customer Agency. When
using this method, the Customer Agency is required to establish controls to ensure that all
invoices are stamped with the date received, reviewed, certified by the staff member designated
on the obligation document, and submitted to ARC for processing in accordance with the Prompt
Payment Act.

All invoices are examined by ARC and Customer Agency staff to ensure that they are proper, as
defined by the Prompt Payment Act. In addition, invoices are matched to the obligating
documents and receiving reports (when applicable) and are certified by invoice approvers. If
receiving reports are not submitted, the invoice approver certifies that the invoice is in accordance
with the terms of the order, and provides the dates the goods/services were received and accepted.

After the invoice approver certifies the invoice, it is submitted to ARC to process the payment to
the supplier. The Customer Agency is responsible for ensuring that invoices are submitted in
time to receive discounts, if applicable, and to pay the invoice prior to the Prompt Payment Act
due date. Upon receipt, ARC reviews the invoice for proper certification, accuracy and
completeness and either schedules the payment in accordance with the terms of the order, the
Prompt Pay Act and Electronic Funds Transfer (EFT) Rules or returns the invoice to the customer
for clarification or additional information.

ARC transmits EFT and check payment files to the U.S. Department of the Treasury using
Treasury’s Secure Payment System (SPS). In addition, ARC processes most intra-governmental
payments using Treasury’s IPAC system. ARC obtains Customer Agency approval prior to
initiating an IPAC payment to another federal agency. ARC also monitors IPAC activity initiated
against the Customer Agency by another federal agency and forwards all IPAC payments to the
appropriate certifying official for approval. ARC records all IPAC payments in the accounting
period the IPAC was accomplished.

Third-party payroll processors provide ARC with a file of payroll data at least bi-weekly (weekly
if payroll adjustment files are applicable) to interface into the accounting system. ARC
reconciles all payroll transactions recorded to disbursements reported by the third-party
processor. ARC records payroll accruals on a monthly basis and reverses the accrual in the
subsequent accounting period. The payroll accrual is a prorated calculation performed by the
accounting system that is based on the most recent payroll disbursement data available.

                                               14                 Description of Controls Provided
                                                                              by the Fiscal Service
ARC processes revenue and collection related transactions (i.e., unfilled customer orders,
receivables, and cash receipts) with Customer Agency approval. Customer Agencies either
forward to ARC approved source documents or a summary of their transactions. ARC records
IPAC transactions in the period in which they are processed in Fiscal Service’s IPAC System.
Check deposits are made by ARC or the Customer Agency. When checks are deposited by
customers, the Standard Form (SF) 215 deposit ticket is forwarded to ARC. In addition, all
deposits require the Customer Agencies to provide the accounting information necessary to
record the cash receipt.

ARC records proprietary and budgetary accounting entries using the United States Standard
General Ledger (USSGL) and Treasury approved budget object codes at the transaction level. In
addition, ARC reconciles general ledger accounts to ensure transactions are posted to the
appropriate accounts.

ARC utilizes Autonomy, a software application managed by Fiscal Service’s Office of
Management Services’ (OMS), Administrative Support Branch (ASB), to store hardcopy and
electronic data records. Autonomy stores the metadata of the hardcopy document, but the digital
document is stored on the storage area network (SAN) to allow access to users of the document.
ARC generates labels, which are printed and placed on boxes that are to be stored in Fiscal
Service's warehouse. The information recorded on the label is entered into Autonomy so that the
boxes can subsequently be requested by ARC personnel, as they are needed. Once the data is
recorded in Autonomy, Fiscal Service warehouse personnel either pick up the box to be placed in
storage or return the box to ARC, as applicable.

ARC works with Customer Agencies to develop and implement processes to ensure the accuracy
of their accounting information. This includes reviewing open commitment, obligation, expense
accrual, customer agreement, and open billing document reports for completeness, accuracy, and
validity. This review is conducted by Customer Agencies or ARC staff no less frequently than
quarterly. Based on the review, a determination is made on the action(s) needed to adjust or
remove any invalid items in ARC’s accounting records.

Budget Services (provided by Accounting Services)
ARC enters the Customer Agency’s budget authority in the accounting system based on the
supporting documentation, which may include enacted legislation, anticipated resources, Treasury
warrants or transfer documents, an Apportionment and Reapportionment Schedule (SF 132), the
Customer Agency’s budget plan or recorded reimbursable activity. The budget process makes
funds available for commitment, obligation, and/or expenditure, and with controls in place, the
automated accounting system checks for sufficient funds in the Customer Agency’s budget at the
specified control levels.

Reporting Services (provided by Accounting Services)
ARC performs all required external reporting for Customer Agencies, including the following
reports: Statement of Transactions (Formerly FMS 224), FACTS I, FACTS II, Report on
Receivables, Treasury Information Executive Repository (TIER), and quarterly and year-end
financial statements. In addition, ARC has created a standard suite of management reports that
are available to all Customer Agencies. ARC reconciles certain general ledger accounts on a
monthly basis and ensures that proprietary and budgetary general ledger account relationships are
maintained and accurate.



                                             15                Description of Controls Provided
                                                                           by the Fiscal Service
Temporary Duty Travel Services (provided by the Travel Services Division)
Travel Services consist of the following:
     • Operating and maintaining the E-Gov Travel system (GovTrip) in compliance with the
         Federal Travel Regulations (FTR) for all ARC Customer Agencies
     • Researching and implementing the FTR and Agency/Bureau travel policies
     • System Administration
     • Providing customer service and training to system users
     • Evaluating, recommending, and implementing approved changes to existing systems
         and/or new systems, including working with the E-Gov Travel vendor and the General
         Services Administration (GSA) on system enhancements and deficiencies
    • Processing employee reimbursements via interface to Oracle
Travel documents (authorizations and vouchers) and miscellaneous employee reimbursements are
entered by Customer Agencies into GovTrip and are electronically routed to an Approving
Official for review and approval. The Approving Official electronically signs the documents with
a status of “approved.” All “approved” documents are interfaced and reconciled to Oracle daily.
GovTrip contains system audits that prohibit documents that do not meet certain Federal Travel
Regulations or do not contain the required accounting information from being approved and
therefore will not interface to Oracle.


Relocation Services (provided by Travel Services Division)
Relocation Services consist of the following:
   • Operating and maintaining moveLINQ, a government relocation expense management
        system in compliance with the Federal Travel Regulations (FTR), Department of State
        Standardized Regulations (DSSR), and Joint Federal Travel Regulations (JFTR) to record
        and process Permanent Change of Station (PCS), Temporary Change of Station (TCS)
        and other types of non TDY moves, examples are Home Leave, Evacuation, Medical
        Evacuation, Rest and Recuperation and Education Travel for Customer Agencies
   • Researching and implementing relocation regulations and Agency/Bureau relocation
        travel policies
   • System Administration
   • Providing customer service
   • Providing system support and training to internal users
   • Evaluating, recommending, and implementing approved changes to the existing system,
        including working with the moveLINQ vendor, mLINQS, on system enhancements and
        deficiencies
   • Processing relocations through the moveLINQ system
   • Processing obligations and disbursements via interface to Oracle
   • Tax Reporting

Relocation travel documents (authorizations, amendments, advances, and vouchers) are entered
by ARC into moveLINQ. Prior to being submitted in moveLINQ, the vouchers are reviewed for
accuracy by a second ARC employee. Completed documents are faxed or digitally scanned and
e-mailed to the traveler and/or approving official for review and approval, as appropriate. For
customers that we process payments, approved documents are interfaced and reconciled to Oracle
daily.




                                             16                Description of Controls Provided
                                                                           by the Fiscal Service
Procurement Services (provided by the Division of Procurement Services)
Procurement Services consist of the following:
    • Awarding contracts and purchase orders in accordance with Federal Acquisition
       Regulations, Treasury Acquisition Regulations and, Customer Agencies Regulations as
       applicable
    • Contract administration
    • Purchase Card Administration

Requests for procurement actions are initiated by customers through requisitions. The
requisitions contain a performance work statement or requirements document, estimated dollar
amount for the goods or service, validation that funds are available and approval from an
authorized official. Requisitions may be sent electronically through PRISM or manually.

Upon receipt of a completed requisition, ARC procurement personnel will develop an acquisition
strategy based upon the item or service being purchased and the expected dollar amount of the
purchase. Using information from the requisition, ARC personnel will develop and publicize the
solicitation requesting proposals. ARC personnel will conduct the evaluation of the proposals
with technical team of experts from our Customer Agencies. With input from the technical team,
an ARC contracting officer will select the vendor that best meets the customer’s requirements.

Following award of the contract, ARC personnel will provide contract administration services.
This includes executing approved and authorized contract modification, resolving issues that arise
during the life of the contract, monitoring delivery schedules and closing out the contract at
completion.

System Platform Services (provided by the Business Technology Division)
ARC maintains system support staff that provide customer services and training activities.
Customer support is provided via phone or e-mail. ARC maintains a training course curriculum
that is generally provided in a hands-on classroom environment.

ARC performs all system access activities in accordance with established procedures for granting,
changing, and removing user access. Included in these procedures are independent reviews of
system access activity and user inactivity.

ARC performs all system change activities in accordance with established procedures for
evaluating, authorizing, and implementing. To this end, ARC maintains responsibility for System
Integration Testing, providing customers an opportunity to perform User Acceptance Testing, and
approving production changes.




                                              17                Description of Controls Provided
                                                                            by the Fiscal Service
RELEVANT ASPECTS OF THE CONTROL ENVIRONMENT, RISK
ASSESSMENT, AND MONITORING

Control Environment

ARC Financial Management Service operations are under the direction of the Assistant
Commissioner of the Office of Administrative Services (OAS). ARC’s mission is to aid in
improving overall government effectiveness by delivering responsive and cost effective
administrative support to its Customer Agencies; thereby, improving their ability to effectively
discharge their mission.

ARC employees and contractors working at ARC are responsible for processing and reporting
accounting activity, providing system support and development services, procurement, and travel
services for its Customer Agencies. ARC holds management meetings on a regular basis to
discuss special processing requests, operational performance, and the development and
maintenance of projects in process. Written position descriptions for employees are maintained.
The descriptions are inspected and revised as necessary.

References are sought and background, credit, and security checks are conducted for all Fiscal
Service personnel when they are hired. Additional background, credit, and security checks are
performed every three to five years. The confidentiality of user-organization information is
stressed during the new employee orientation program and is emphasized in the personnel manual
issued to each employee. Fiscal Service provides a mandatory orientation program to all full time
employees and encourages employees to attend other formal outside training. Training available
to Fiscal Service employees with related work responsibilities includes, but is not limited to:
Prompt Pay and Voucher Examination, Appropriation Law, Federal Acquisition Regulations,
Federal Travel Regulations, Reconciling with and Reporting to Treasury, Dollars & Sense,
Federal Accounting Fundamentals, USSGL Practical Applications, Budgeting and Accounting –
Making the Connection and Computer Security Training Awareness.

All Fiscal Service employees receive an annual written performance evaluation and salary
review. These reviews are based on goals and objectives that are established and reviewed during
meetings between the employee and the employee’s supervisor. Completed appraisals are
reviewed by senior management and become a permanent part of the employee’s personnel file.

Risk Assessment

Fiscal Service has placed into operation a risk assessment process to identify and manage risks
that could affect ARC’s ability to provide reliable accounting and reporting, system platform and
travel services for Customer Agencies. This process requires management to identify significant
risks in their areas of responsibility and to implement appropriate measures and controls to
manage these risks.

Monitoring

Fiscal Service management and supervisory personnel monitor the quality of internal control
performance as a normal part of their activities. Management and supervisory personnel inquire
of staff and/or review data to ensure that transactions are processed within an effective internal
control environment. An example of a key monitoring control is that ASD Accounting Services
Branch Managers and/or Supervisors review reconciliations from Oracle sub ledgers to the


                                              18                Description of Controls Provided
                                                                            by the Fiscal Service
related general ledger accounts. ASD prepares budgetary to proprietary account relationship
reconciliations on a monthly basis. In addition, ASD prepares and reconciles the FACTS II
submitted reports to the trial balance and statement of budgetary resources each time the FACTS
II file is submitted. ARC also uses the results of the annual Statements on Standards for
Attestation Engagements (SSAE 16) examination as a tool for identifying opportunities to
strengthen controls.




                                            19                Description of Controls Provided
                                                                          by the Fiscal Service
INFORMATION AND COMMUNICATION

Information Systems

Oracle Federal Financials (Oracle)
Oracle on Demand operates Oracle versions 11 and R12, Oracle 11g database in a Linux
operating system environment. Oracle uses a two-tier web-based infrastructure with a front-end
Internet user interface and a database residing on the secure network. The application accesses
the database IP to IP on a specified port that was defined in the Access Control List. Only select
Internet Protocol (IP) addresses that are defined in the Access Control List are permitted to
connect to the database IP. Internet access is via a 128-bit Secure Sockets Layer (SSL) encrypted
connection. The application is compliant with Section 508 of the Rehabilitation Act Amendment
for 1998 for Americans with Disabilities (ADA). Functions of Oracle include budget execution,
general ledger, purchasing, accounts payable, accounts receivable, project accounting, fixed
assets, and manufacturing. ARC also uses a report writer package called Discoverer that provides
users with the ability to create their own ad hoc reports for query purposes.

Procurement Request Information System Management (PRISM)
Oracle on Demand operates PRISM version 7.1, on Windows Server 2003 operating system and
Oracle 11g database in a Linux operating system environment. PRISM uses a two-tier web-based
infrastructure with a front-end Internet user interface using Windows as its operating system and
a database residing on the secure Oracle on Demand network. The application accesses the
database on a specified port that is defined in the Access Control List. Only select Internet
Protocol (IP) addresses that are defined in the Access Control List are permitted to connect to the
database IP. Internet access is via a 128-bit SSL encrypted connection. Transactions entered
through PRISM interface real-time with Oracle.

Invoice Processing Platform (IPP)
ARC uses the Fiscal Service’s IPP electronic invoice processing solution (mandated for all
Treasury Bureaus by the Department of Treasury). IPP is a web-based electronic invoicing and
payment information system that is hosted by the Federal Reserve Bank of Boston. Purchase
orders are interfaced from Oracle to IPP. Invoices are submitted in IPP by either the vendor or
ARC personnel and are routed to the customer for approval. Upon approval, the invoice
interfaces from IPP to Oracle and the invoice is scheduled for payment. Remittance information
then interfaces from one of three Regional Finance Centers (RFC), Treasury Fiscal Management
Service processing centers that provide payment services for federal agency sites. IPP users
consist of invoice approvers, viewers and administrators.

webTA
ARC uses Kronos’ webTA as its time and attendance system for most of its Customer Agencies
whose payroll is processed by the NFC. Transactions that are entered in webTA interface with
NFC, and NFC ultimately sends payroll data back to ARC for an interface into Oracle.

ARC operates webTA version 3.8.15 on Windows Server 2003. webTA uses the Oracle 11g
database, which runs on the ARC subnet and accesses data in the ARC DMZ using Linux AS 2.1
as its operating system. Information and Security Services (ISS) serves as the webTA database
administrator and provides primary support for tape backup and recovery. webTA uses a two-tier
web-based infrastructure with a front-end Internet user interface and a database residing on the
secure network. The application (web-applet) accesses the database on a specified port that is
defined in the Access Control List. Only select IP addresses that are defined in the Access
Control List are permitted to connect to the database IP. External Internet access is via 128-bit

                                              20                 Description of Controls Provided
                                                                             by the Fiscal Service
encrypted connection. External security is provided by ISS through firewall rules and router
access control lists.

GovTrip
ARC uses Northrop Grumman Mission System’s (NGMS’s) GovTrip travel system (system
selected by the U.S. Department of the Treasury as its E-Gov Travel solution). NGMS developed
and hosts GovTrip. GovTrip is a web-based, self-service travel system that incorporates
traditional reservation and fulfillment support and a fully-automated booking process. GovTrip
uses system processes and audits to ensure compliance to the FTR and/or Agency policy.
GovTrip is used to prepare, examine, route, approve, and record travel authorizations and
vouchers. It is used to process all temporary duty location (TDY) authorizations, vouchers, local
vouchers and miscellaneous employee reimbursements. Approved documents interface to Oracle
for obligation or payment during a daily batch process. GovTrip users consist of travelers,
document preparers, budget reviewers, approving officials and administrators.

moveLINQ
ARC uses mLINQS relocation expense management system, moveLINQ, to meet their relocation
management program, payment system and reporting requirements. moveLINQ is an E-Gov
Travel Services and Federal Travel Regulations, Chapter 302 compliant web-based system that
automates relocation expense management processes, policy and entitlement for both domestic
moves and international relocations. The application is used for household goods shipment and
storage arrangements, employee travel arrangements, third party real estate payments and
relocation tax administration, including W-2 preparation. Approved documents interface to
Oracle for obligation or payment during a daily scheduled batch process.     moveLINQ users
consist of authorized TSD personnel. ISS hosts the moveLINQ system and serves as the
Microsoft SQL database administrator and provides primary support for tape backup and
recovery.

PRISM, IPP, GovTrip, moveLINQ, and E-Payroll to Oracle Reporting (EOR) are feeder systems
that interface with Oracle. Oracle on Demand hosts Oracle, PRISM and EOR, Northrop
Grumman hosts GovTrip, the Federal Reserve Bank of Boston hosts IPP, and ARC hosts
moveLINQ. ARC performs application administration for all feeder systems.

Communication

Fiscal Service has implemented various methods of communication to ensure that all employees
understand their individual roles and responsibilities over processing transactions and controls.
These methods include orientation and training programs for newly hired employees, and use of
electronic mail messages to communicate time sensitive messages and information. Managers
also hold periodic staff meetings as appropriate. Every employee has a written position
description that includes the responsibility to communicate significant issues and exceptions to an
appropriate higher level within the organization in a timely manner. Managers also make an
effort to address continuing education needs of all employees by identifying training
opportunities made available through Fiscal Service’s employee training and career development
programs, internal training classes, and professional conferences.




                                              21                 Description of Controls Provided
                                                                             by the Fiscal Service
COMPLEMENTARY CUSTOMER AGENCY CONTROLS

The Fiscal Service’s processing of transactions and the controls over the processing were
designed with the assumption that certain controls would be placed in operation by Customer
Agencies for the control objectives to be achieved. This section describes some of the controls
that should be in operation at Customer Agencies to complement the controls at Fiscal Service.
Customer Agency auditors should determine whether user Customer Agencies have established
controls to provide reasonable assurance to:
•   Properly approve and accurately enter obligations into the procurement and travel systems in
    the proper period.
•   Send approved requests to record manual obligations to ARC in a timely manner.
•   Review open obligation and accrual reports for completeness, accuracy, and validity.
•   Approve and return relocation travel authorizations to Relocation Services Branch (RSB) for
    processing in moveLINQ in a timely manner.
•   Communicate Customer Agency required levels of budget and spending controls to ARC.
•   Approve and return relocation travel vouchers to RSB for processing in moveLINQ in a
    timely manner.
•   Compare actual spending results to budgeted amounts.
•   Review the financial reports provided by ARC to ensure that disbursement transactions are
    complete and accurate.
•   Approve invoices for payment and send approved invoices to ARC in a timely manner.
•   Ensure that invoices properly reflect the invoice receipt date and formal or constructive
    acceptance date according to the Prompt Payment Act.
•   Approve travel vouchers and accurately enter the vouchers into GovTrip in the proper period.
•   Maintain and communicate to ARC, a list of individuals authorized to approve invoices and
    travel vouchers when it is not communicated in the authorizing agreement.
•   Send approved and accurate documentation of unfilled customer orders, receivables, and cash
    receipts transactions to ARC in the proper period.
•   Review unfilled customer orders, receivable and advance reports for completeness, accuracy,
    and validity.
•   Monitor and pursue collection of delinquent balances.
•   Review the financial reports provided by ARC to ensure that payroll accruals are complete
    and accurate.
•   Verify that payroll processed by third-party providers is complete and accurate.
•   Review the financial reports provided by ARC to ensure that payroll disbursements are
    complete and accurate.
•   Approve and send revenue and expense accruals to ARC in a timely manner.
•   Review and approve, prior to submission, the financial reports prepared by ARC to ensure
    that all reports prepared for external use are complete, accurate, and submitted in a timely
    manner.

                                              22                 Description of Controls Provided
                                                                             by the Fiscal Service
•   Review open obligation and accrual reports for completeness, accuracy, and validity.
•   Provide certification of FACTS II to ARC prior to ARC’s FACTS II system certification.
•   Send approved budget plans to ARC in a timely manner.
•   Review the financial reports provided by ARC to ensure that budget entries are complete and
    accurate.
•   Communicate OMB apportionment status to ARC.
•   Monitor usage of budget authority during periods of operation under a Continuing Resolution
    to ensure that OMB directed apportionment limits are not exceeded.
•   Send valid and approved requests to record manual journal entries to ARC in a timely
    manner.
•   Maintain and communicate to ARC, a list of individuals authorized to submit manual journal
    entries that are initiated by the Customer Agency.
•   Review and approve listing of users with current Oracle, PRISM, IPP, webTA, and GovTrip
    access to ensure appropriateness.
•   Ensure exiting employee timecards are coded “Final” as this will help ensure that HR staff
    deactivate the employee’s webTA access.


Specific complementary Customer Agency Controls are provided for Control Objectives 1, 2, 3,
5, 6, 7, 8, 9, 10, 11, 12, and 17, in the Control Objectives, Related Controls, and Tests of
Operating Effectiveness section of this report.




                                             23                Description of Controls Provided
                                                                           by the Fiscal Service
SUB-SERVICE ORGANIZATIONS

In order to provide financial management services, ARC relies on systems and services provided
by other organizations external to Fiscal Service (sub-service organizations). The achievement of
control objectives depends on whether controls at the sub-service organizations anticipated in the
design of Fiscal Service’s controls were implemented and operating effectively. These sub-
service organizations were not subject to examination by KPMG LLP.


    Name of Sub-service            Name of System                Function/Responsibilities
      Organization


 Fiscal Service                Central Accounting and      Treasury’s Fiscal Service provides
                               Reporting System            reports to inform agencies of their
                               (CARS)                      Fund Balance With Treasury and to
                                                           assist agencies in reconciling their
                                                           general ledger balances to Fiscal
                                                           Service balances. ARC uses these
                                                           reports to perform reconciliations.

                               Secure Payment System       ARC uses SPS to process payments
                               (SPS)                       for invoices.

                               Invoice Processing          ARC uses IPP to electronically route
                               Platform (IPP)              invoices for approval and payment.

                               CIR, CARS (Treasury         ARC uses these applications to
                               Disbursing Offices)         identify differences between cash and
                               TDO Payments,               disbursements
                               Intragovernmental
                               Payment and Collection
                               transactions (IPACs)

                               FACTS I                     Treasury’s Fiscal Service maintains
                                                           the FACTS I system. The FACTS I
                                                           system has edit checks to verify that
                                                           the submitted USSGL accounts and
                                                           attributes are valid and have equal
                                                           debit and credit balances.



                               FACTS II                    Treasury’s Fiscal Service maintains
                                                           the FACTS II system. The FACTS II
                                                           system performs USSGL edit checks
                                                           and rejects any files that fail the edit
                                                           checks.


                                              24                Description of Controls Provided
                                                                            by the Fiscal Service
Name of Sub-service      Name of System        Function/Responsibilities
  Organization



                      TGAnet and OTCnet   Treasury General Account Deposit
                                          Reporting Network (TGAnet) and
                                          Over The Counter Channel
                                          Application (OTCnet) enable Federal
                                          Program Agency (FPA) users to report
                                          over-the-counter receipts in a secure,
                                          web-based system. In addition to the
                                          summary deposit information
                                          currently required on the paper SF
                                          215, TGAnet and OTCnet collect sub-
                                          total accounting information that can
                                          feed the FPA's administrative
                                          accounting systems as well as the
                                          Treasury's central accounting system



                      FedInvest           Used to purchase and redeem
                                          Government Account Series (GAS)
                                          securities; data source for Customer
                                          Agency federal investment interfaced
                                          transactions with Oracle.




                                  25           Description of Controls Provided
                                                           by the Fiscal Service
  Name of Sub-service      Name of System              Function/Responsibilities
    Organization


Treasury                Treasury Information     For ARC’s Treasury and the
                        Executive Repository     Department of Homeland Security
                        (TIER)                   Customer Agencies, FACTS I and II
                                                 reporting requirements are met using
                                                 TIER. TIER is Treasury’s
                                                 departmental data warehouse that
                                                 receives monthly uploaded financial
                                                 accounting and budgetary data from
                                                 the Treasury and the Department of
                                                 Homeland Security bureaus and other
                                                 reporting entities within the
                                                 Department of the Treasury and the
                                                 Department of Homeland Security in a
                                                 standardized format. Data submitted to
                                                 TIER by an ARC accountant is
                                                 validated based on system-defined
                                                 validation checks.

                                                 ARC has customized programs in
                                                 Oracle that extract the accounting and
                                                 budgetary data in the required TIER
                                                 format. TIER has a standardized chart
                                                 of accounts that is compliant with
                                                 USSGL guidance issued by the
                                                 Department of the Treasury. FACTS
                                                 II edit checks are incorporated in the
                                                 TIER validation checks. After
                                                 submitting the adjusted trial balances
                                                 into TIER, ARC accountants review
                                                 the edit reports and resolve any invalid
                                                 attributes or out-of-balance conditions.
                                                 ARC accountants document this
                                                 review by completing the TIER
                                                 Submission Checklist, which is further
                                                 reviewed by a supervisor.


                        Financial Analysis and   Treasury’s FARS produces financial
                        Reporting System         statements using data bureaus have
                        (FARS)                   submitted to TIER.




                                      26              Description of Controls Provided
                                                                  by the Fiscal Service
   Name of Sub-service           Name of System          Function/Responsibilities
     Organization


Various third-party payroll   Various systems      Third-party payroll processors
processors                                         transmit payroll files to ARC after the
                                                   end of a pay period. ARC uses these
                                                   files for recording payroll
                                                   disbursements.

Northrop Grumman              GovTrip              NGMS developed and hosts the
Mission Systems (NGMS)                             GovTrip system, which is an E-Gov
                                                   travel platform. NGMS is the vendor
                                                   for E-Gov travel selected by the
                                                   Department of the Treasury.
                                                   NGMS maintains the data in their
                                                   Business Data Warehouse for six
                                                   years and three months.


General Services              Central Contractor   Primary registrant database for the
Administration (GSA)          Registration (CCR)   U.S. Federal Government; collects,
                                                   validates, stores and disseminates data
                                                   in the System for Award Management
                                                   in support of Customer Agency
                                                   acquisition missions.
                                                   ARC’s Oracle and PRISM
Oracle Corporation            Oracle on Demand
                                                   applications are hosted at Oracle on
                                                   Demand. Fiscal Service retains
                                                   application administration
                                                   responsibilities and Oracle on Demand
                                                   provides the computer processing
                                                   infrastructure and support thereto.

                                                   Oracle on Demand staff serve as the
                                                   database and system administrators
                                                   and provides backup and recovery
                                                   services for Oracle and PRISM.




                                           27           Description of Controls Provided
                                                                    by the Fiscal Service
IV.   CONTROL OBJECTIVES, RELATED CONTROLS, AND
          TESTS OF OPERATING EFFECTIVENESS




                     28   Control Objectives, Related Controls, and
                                   Tests of Operating Effectiveness
ACCOUNTING PROCESSING CONTROLS

Control Objective 1 - Obligations

Controls provide reasonable assurance that obligations are authorized, reviewed, documented,
and processed timely in accordance with Administrative Resource Center (ARC) policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of obligations.

PRISM System Interface
An obligation is created when a Customer Agency enters into a legally binding contract with a
vendor for goods or services. The obligation is entered into the accounting system through an
interface between PRISM and Oracle. The interface changes the budget status from a
commitment (if applicable) to an obligation in the general ledger and updates the corresponding
system tables. The interface between the procurement and accounting systems is real-time. The
procurement system has built-in controls that validate information provided by the Customer
Agency and ensure proper authorization is granted prior to the interface into the accounting
system. These include:
    • Limited options based on roles;
    • Field inputs limited to look-up tables;
    • Data validations;
    • Pre-populated fields for default or standard entries;
    • Validation of funds availability; and
    • Non-editable fields (i.e., total when amount is per unit).

The interface between PRISM and Oracle is monitored periodically throughout the day by
systems analysts. The analysts periodically monitor a report that identifies transactions that have
been in the Pending Financial Approval status for more than 15 minutes and a report that
identifies transactions that were disapproved during the Pending Financial Approval status. The
analysts monitor the reports to ensure transactions are processed timely and to identify and
investigate any issues. Additionally, for transactions that terminate in Pending Financial Approval
status, the report indicates that when Oracle attempted to insert the record into the general ledger
database a successful message was not returned. The report lists all transactions currently in this
state. The analyst investigates all transactions included in the report to resolve the issues and
change the status accordingly.

Manually Recorded Obligations – Customer Agency Approval
For obligations not processed through the interface, Customer Agencies and/or Procurement
sends ARC a signed copy of the agreement or an e-mail to obligate the funds. Upon receipt from
the Customer Agency, the ARC technician responsible for processing the Customer Agency’s
accounting transactions reviews the documentation to ensure that adequate accounting
information has been received, and manually enters the obligation into Oracle. Obligations that
are posted in Oracle are available for both ARC and Customer Agency review through ad hoc
Discoverer reports.




                                               29       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Temporary Duty Travel System Interface
Customer Agencies enter travel authorizations into GovTrip and electronically route them to
Approving Officials for review and approval. Approving Officials electronically sign the
authorization with a status of “approved”. All “approved” authorizations are interfaced daily via
batch processing to Oracle which records an obligation in the general ledger. Each day an
interface file is received from Northrop Grumman Mission Systems (NGMS) which is used for
processing, report generation, and identification of exceptions. The file is loaded into the Oracle
interface and accepted records are added to Oracle as obligations in the general ledger. A Travel
Order Status Report is generated and reviewed to identify and correct data interface errors and
exceptions between GovTrip and Oracle. To correct transactions of this nature, the transactions
are manually entered into the system. Approved authorizations in GovTrip are reconciled daily
by an accounting technician with an Oracle generated report to ensure that all GovTrip
authorizations have been interfaced and processed in Oracle. In addition, GovTrip prevents a
user from both entering and approving travel authorizations unless they have authorized access.

Relocation Travel System Interface
The Relocation Services Branch (RSB) personnel enter PCS travel authorizations into
moveLINQ, save as PDF and send them to Approving Officials for review and approval. When
the signed document is received by RSB, Relocation Coordinators stamp the document in
moveLINQ with a status of “approved”. All “approved” documents are interfaced daily via batch
process to Oracle which records an obligation in the general ledger. Approved authorizations in
moveLINQ are reconciled daily by an accounting technician with an Oracle generated report to
ensure that all moveLINQ authorizations have been interfaced and processed in Oracle.

Budget Execution System Controls
Customer Agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at various allocation levels.

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. System controls are
designed to prevent the user from apportioning more than was appropriated, and allocating more
than was apportioned. Decisions on control settings that permit or prevent spending beyond other
budget plan levels are determined by the Customer Agency. System controls are applied at the
fund level after passage of appropriation legislation and a high-level budget is loaded at the
allocation level. Upon receipt and input of a detailed financial plan, controls are established at a
more detailed level if desired by the Customer Agency.

Budget execution settings are determined by the Customer Agency and set-up in Oracle by the
Customer Service Branch (CSB). System settings are reviewed with the Customer Agency on an
annual basis. Budget plans are input into Oracle by ARC staff, based upon budget plans provided
by Customer Agencies. Budget plans are input into Oracle by ARC Staff and independently
reviewed.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on obligating
documents. ARC has developed and implemented a standard document-numbering scheme to
avoid duplicate document processing and to enable readers of ARC reports to better identify
and/or determine the nature of transactions processed by ARC. When an ARC user attempts to

                                               30       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
enter a transaction identification number that already exists, Oracle issues an error message that
alerts the user of the duplication.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Properly approve and accurately enter obligations into the procurement and travel systems in
    the proper period.
•   Send approved requests to record manual obligations to ARC in a timely manner.
•   Review open obligation reports for completeness, accuracy, and validity.
•   Review and approve listing of users with current Oracle, PRISM, IPP, webTA, and GovTrip
    access to ensure appropriateness.
•   Approve and return relocation travel authorizations to RSB for processing in moveLINQ in a
    timely manner.
•   Communicate Customer Agency required levels of budget and spending controls to ARC.
•   Compare actual spending results to budgeted amounts.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for the processing of obligations and determined that the
   procedures were formally documented for the processing of obligations.
2. Observed the validation tables in PRISM and noted that the system was configured to
   validate obligation document types and to ensure accuracy and completeness of the data
   interfaced from PRISM to Oracle.
3. Observed the PRISM Support Desk Staff monitoring the “Pending Financial Approval” and
   “Disapproved during Pending Financial Approval” reports and noted that the reports
   appeared to be monitored, and backlogs were not building up.
4. For a selection of manually entered obligations, inspected evidence of Customer Agency
   approval and determined that manually entered obligations were approved prior to being
   entered into Oracle by ARC Staff.
5. Observed the daily GovTrip interface and noted that approved travel authorizations were
   interfaced into Oracle and recorded as an obligation.
6. For a selection of dates, inspected GovTrip to Oracle interface reconciliations and determined
   that daily reconciliations were performed to ensure that data from GovTrip interfaced to
   Oracle.
7. Observed an ARC staff member entering travel vouchers into GovTrip and noted that the
   system required the travel vouchers to be routed to an approving official.
8. Observed an approving official attempt to enter and approve travel authorizations and noted
   that GovTrip prevented a user from both entering and approving travel authorizations.
9. Observed the daily moveLINQ interface and noted that approved relocation authorizations
   were interfaced into the Oracle system and recorded as an obligation.

                                              31       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
10. For a selection of days, inspected the reconciliation of authorization from moveLINQ to
    Oracle and determined that the interface activity was reconciled to ensure all approved
    authorizations were completely and accurately interfaced to Oracle.
11. For a selection of Customer Agencies, inspected evidence and determined that for the year
    they specified their budget controls, they were input by CSB staff, and then reviewed by a
    supervisor for completeness and accuracy.
12. Observed an ARC staff member attempt to enter a transaction into Oracle with a document
    number that had already been entered into Oracle and noted that Oracle automatically
    rejected the entry of a duplicate document number.


No exceptions noted.




                                            32       Control Objectives, Related Controls, and
                                                              Tests of Operating Effectiveness
Control Objective 2 - Disbursements

Controls provide reasonable assurance that the disbursement of invoices and vouchers is
authorized, reviewed, processed timely, reconciled, and properly documented in accordance with
ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of disbursements.

Customer Agency Invoice Approvals
ARC only processes disbursements for invoices with Customer Agency approval. Vendors can
submit invoices through the Invoice Processing Platform (IPP) or send invoices to the Customer
Agency or ARC, depending on the instructions in the purchase order. If the vendor submits the
invoice through IPP it is routed to the invoice approver designated on the purchase order. If
invoices are sent to the Customer Agency, the Customer Agency reviews and approves the
invoice and forwards the invoice and documentation of Customer Agency approval to ARC. If
invoices are sent to ARC, Customer Agency approval is given through an executed receiving
document, via IPP workflow or ARC submits the invoice to an authorized Customer Agency
contact for approval. Appropriate contacts are either specified in the purchase order or are
communicated to ARC by the Customer Agency. Intra-governmental Payment and Collection
transactions (IPACs) which decrease an ARC Customer Agency’s Fund Balance with Treasury
(FBWT) must be approved in advance by the Customer Agency, unless the IPAC was initiated
against the Customer Agency by another federal agency. To ensure that IPAC transactions
initiated against the Customer Agency by another federal agency are posted in the proper
accounting period, ARC may obtain Customer Agency approval after the IPAC has been
recorded. Disbursement may also occur with information from feeder systems (PRISM, GovTrip,
and moveLINQ).

Statistical Sampling of Invoices
All invoices are subject to ARC internal review. System controls set at the user identification
and/or vendor level ensure that payment of invoices greater than or equal to $2,500 which are
processed by an accounting technician must be reviewed and approved by a lead accounting
technician or an accountant. Invoices less than $2,500 are subject to statistical sampling. System
user access profiles restrict accounting technicians’ ability to process documents that require
secondary review and approval and ensure proper segregation of duties is maintained. A 100%
post audit management review is conducted monthly on all invoices greater than $2,500 that are
both processed and approved by the same individual.

Temporary Duty Travel Vouchers
Customer Agencies enter temporary duty travel vouchers into GovTrip and electronically route
them to Approving Officials for review and approval. Approving Officials electronically sign the
voucher with a status of “approved”. All “approved” travel vouchers are interfaced daily via
batch processing to Oracle which records a disbursement in the general ledger. Each day an
interface file is received from the GovTrip System which is used for processing, report
generation, and identification of exceptions. The file is loaded into the Oracle interface and
accepted records are added to Oracle as disbursements in the general ledger. The travel voucher
is then matched against an existing authorization. A Travel Voucher Status Report is generated
and reviewed to identify and correct data interface errors and exceptions between GovTrip and
Oracle. To correct transactions of this nature, the transactions are manually entered into the
system. Approved vouchers in GovTrip are reconciled daily by an accounting technician with an

                                              33       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Oracle generated report to ensure that all GovTrip vouchers have been interfaced and processed
in Oracle. In addition, GovTrip prevents a user from both entering and approving travel
vouchers.

Statistical Sampling of Temporary Duty Travel Vouchers
Temporary Duty Services Branch (TDSB) staff completes a post audit review of temporary duty
travel vouchers to verify the accuracy of the interfaced data and compliance with Federal Travel
Regulations (FTR), using statistical sampling procedures to select documents less than $2,500,
based on the Customer Agency’s travel policy (FTR or FTR/ARC). A 100% post audit review is
conducted on all documents greater than $2,500. Errors discovered during the review are sent via
e-mail to the traveler or document preparer and approving official to review and/or take action.
Billing documents are created for amounts owed by a traveler of $25 or greater, resulting from an
overpayment in which the Customer Agency has declared the overpayment a debt of the
government. The traveler sends a check to cover the overpayment.

Relocation Services Travel Vouchers
RSB personnel enter and audit each PCS travel voucher in moveLINQ, save as PDF and then
send them to Approving Officials for review and approval. When the signed document is
received by RSB, Relocation Coordinators stamp the document in moveLINQ with a status of
“approved”. All “approved” documents are interfaced daily via batch processing to Oracle which
records a disbursement in the general ledger. Approved vouchers in moveLINQ are reconciled
daily by an Accounting Technician with an Oracle generated report to ensure that all moveLINQ
vouchers have been processed in Oracle.

Payment Date Calculations
Based on the Customer Agency’s contracts with its suppliers, ARC staff enters the later of the
invoice receipt date, or the earlier of the formal or constructive acceptance dates in Oracle based
on the supporting documentation from the Customer Agency or dates provided by the Customer
Agency’s approver in IPP. The invoice date is entered into Oracle by ARC staff or interfaces
from the IPP Invoice. On a daily basis, Oracle selects invoices that are due for payment and
creates files for manual uploading into Treasury’s Secure Payment System (SPS). The ARC SPS
certifying officer compares the number and dollar amount of payments from the SPS generated
schedule to the payment files generated by Oracle to ensure all payment files have been uploaded
to Treasury.      For invoices that are subject to the Prompt Payment Act, Oracle schedules
payments to disburse 30 days after the later of the invoice receipt date and the earlier of the date
of formal or constructive acceptance (unless the supplier’s contract or invoice states otherwise).
Effective July 11, 2012, all vendor invoices are scheduled for payment as soon as approved. Any
payments that are subject to the Prompt Payment Act that are paid after their Oracle scheduled
due date are subject to prompt pay interest to cover the period the payment was due but not paid.
Oracle automatically determines if interest is due based on the dates in the accounting system. If
interest is due, Oracle calculates interest and generates an interest payment to the vendor,
provided the total interest is more than one dollar.

Reconciliation – Fund Balance With Treasury Activity
Each month, Treasury’s Fiscal Service issues the Statement of Differences to agency location
codes (ALC) when differences are identified between the cash activity reported by the agency on
the , Central Accounting Reporting System (CARS) Statement of Transactions(formerly FMS
224), and data reported to Treasury’s, Collections Information Repository (CIR, formerly TRS),
Payment Information Repository (PIR), CARS TDO Payments, and IPAC systems. ARC
accountants minimize month-end disbursement differences by comparing preliminary CARS
Statement of Transactions disbursement data to data obtained from Treasury’s, CIR, PIR, CARS

                                               34       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
TDO Payments, and IPAC systems. Any differences identified by the accountant are corrected
by an accounting technician or another accountant prior to the close of the accounting period.
ARC accountants prepare monthly Statement of Differences reconciliations for supervisory
review. If a Statement of Differences was received, the transaction(s) that caused the difference is
(are) identified and if necessary, correcting entries are posted by an accounting technician or
another accountant and reported in the subsequent accounting period.

Budget Execution System Controls
Customer Agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at various allocation levels.

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. System controls are
designed to prevent the user from apportioning more than was appropriated, and allocating more
than was apportioned. Decisions on control settings that permit or prevent spending beyond other
budget plan levels are determined by the Customer Agency. System controls are applied at the
fund level after passage of appropriation legislation and a high-level budget is loaded at the
allocation level. Upon receipt and input of a detailed financial plan, controls are established at a
more detailed level if desired by the Customer Agency.

Budget execution settings are determined by the Customer Agency and set-up in Oracle by the
CSB. System settings are reviewed with the Customer Agency on an annual basis. Budget plans
are input into Oracle by ARC staff, based upon budget plans provided by Customer Agencies.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers for the same vendor
site on accounts payable transactions. ARC has developed and implemented a standard
document-numbering scheme to avoid duplicate document processing and to enable readers of
ARC reports to better identify and/or determine the nature of transactions processed by ARC.
When an ARC user attempts to enter a transaction identification number that already exists,
Oracle issues an error message that alerts the user of the duplication.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Review the financial reports provided by ARC to ensure that disbursement transactions are
    complete and accurate.
•   Approve invoices for payment and send approved invoices to ARC in a timely manner.
•   Ensure that invoices properly reflect the invoice receipt date and formal or constructive
    acceptance date according to the Prompt Payment Act.
•   Approve travel vouchers and accurately enter the vouchers into GovTrip in the proper period.
•   Approve and return relocation travel vouchers to RSB for processing in moveLINQ in a
    timely manner.


                                               35       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   Maintain and communicate to ARC, a list of individuals authorized to approve invoices and
    travel vouchers when it is not communicated in the authorizing agreement.
•   Communicate Customer Agency required levels of budget and spending controls to ARC.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for the processing of disbursements and determined that the
   procedures were formally documented.
2. For a selection of invoices, inspected documentation of Customer Agency authorization and
   related general ledger entries and determined that disbursements were authorized and
   processed timely.
3. For a selection of Intergovernmental Payment and Collection (IPAC) transactions, inspected
   documentation of Customer Agency authorization and related general ledger entries and
   determined that disbursements were authorized and processed timely.
4. Observed an accountant process an invoice over $2,500 and noted that the system
   automatically routed the invoice to a secondary lead accounting technician or an accountant
   for review and approval.
5. For a selection of months, inspected evidence of the statistical review of invoices less than
   $2,500 and determined that the statistical review was performed subject to statistical sampling
   by a lead accounting technician or an accountant.
6. For a selection of months, inspected evidence and determined that the 100% post audit
   management reviews were conducted monthly on all invoices greater than $2,500 which were
   both processed and approved by the same individual and determined that the review was
   performed appropriately.
7. Observed the daily GovTrip interface and noted that approved travel authorizations were
   interfaced into Oracle and were recorded as an obligation.
8. For a selection of days, inspected GovTrip voucher reconciliations and determined that
   approved vouchers in GovTrip were reconciled daily to Oracle by an accounting technician.
9. Observed a user in GovTrip attempting to approve their own travel voucher and noted that the
   system automatically prevented the user from approving their own travel voucher.
10. There were no temporary duty travel voucher invoices over $2,500 that were processed
    during the selected months that were processed and approved by the same individual.
11. Observed relocation vouchers interfaced into Oracle and noted that approved vouchers were
    interfaced via automated batch process.
12. For a selection of days, inspected evidence and determined that vouchers in moveLINQ were
    reconciled daily by an Accounting Technician with an Oracle generated report.
13. For a selection of days, inspected evidence that the ARC SPS certifying officer compared the
    number and dollar amount of payments and determined that the review was completed daily
    to ensure interfaces were uploaded completely.
14. For a selection of invoices subject to the Prompt Payment Act, inspected documentation and
    determined that Oracle schedules payments to disburse 30 days after the later of the invoice
    receipt date and the earlier of the date of formal or constructive acceptance (unless the
    supplier’s contract or invoice states otherwise).

                                              36       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
15. For a selection of late payments, inspected evidence and determined that proper interest was
    calculated and paid based on the number of days the payment was late.
16. For an example late payment, recalculated the interest owed and determined that Oracle
    calculated interest and generated an interest payment to the vendor.
17. For a selection of months, inspected the Statement of Differences and determined that
    supervisors reviewed the reconciliations.
18. For identified differences from the selection of months and Customer Agencies, inspected
    evidence and determined that accounting technicians or another accountant corrected
    differences prior to the close of the accounting period or in the subsequent accounting period
    if necessary, based on timing.
19. For a selection of Customer Agencies, inspected evidence and determined that for the year
    they specified their budget controls, they were input by CSB staff, and then reviewed by a
    supervisor for completeness and accuracy.
20. Observed an ARC staff member attempt to enter a transaction into Oracle with a document
    number that had already been entered into Oracle and noted that Oracle automatically rejected
    the entry of a duplicate document number.


No exceptions noted.




                                              37       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 3 – Unfilled Customer Orders, Receivables, and Cash Receipts

Controls provide reasonable assurance that unfilled customer orders, receivables, and cash
receipts are reconciled and properly documented in accordance with ARC policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of unfilled customer
orders, receivables, and cash receipts.

Customer Agency Approval
ARC only processes unfilled customer orders, receivables, and cash receipts with Customer
Agency approval, with the exception of checks received for deposit directly by ARC on the
customer’s behalf for accounts payable invoice refunds of overpayments and/or vendor rebates.
Customer Agencies either send signed source documents or provide a summary of their
transactions via fax or e-mail. ARC enters all transactions into Oracle, which are available for
review through reporting systems. To help ensure that cash receipts are posted in the proper
accounting period, ARC may obtain Customer Agency approval after the cash receipt has been
recorded.

Reconciliation – Fund Balance With Treasury Activity
Each month, Treasury’s Fiscal Service issues the Statement of Differences to ALCs when
differences are identified between the cash activity reported by the agency on the CARS,
Statement of Transactions, and data reported to Treasury’s CA$HLINK II , CIR, PIR, TRS and
IPAC systems. ARC accountants minimize month-end differences relating to collections by
comparing preliminary CARS collection data to Treasury’s, CIR, PIR, CARS TDO and IPAC
systems. Any differences identified by the accountant are corrected by an accounting technician
or another accountant prior to the close of the accounting period. ARC accountants prepare
monthly Statement of Differences reconciliations for supervisory review. If a Statement of
Differences was received, the transaction(s) that caused the difference is (are) identified and if
necessary, correcting entries are posted by an accounting technician or another accountant and
reported in the subsequent accounting period.

Reporting - Receivables
ARC accountants prepare and submit a quarterly Report on Receivables Due from the Public for
all Customer Agencies. This report requires agencies to track the collection of receivables and
report on the status of delinquent balances according to an aging schedule. Accountants that are
responsible for preparing the Report on Receivables Due from the Public review and reconcile all
activity (i.e., new receivables, revenue accruals, collections, adjustments and write-offs) with the
public on a quarterly basis. An ARC supervisory accountant reviews the report. Customer
Agencies are responsible for monitoring and pursuing collection of delinquent balances. On an
annual basis, the Customer Agency’s Chief Financial Officer must certify that the report
submitted to the Department of the Treasury is accurate and consistent with agency accounting
systems.

Intra-governmental Transactions
ARC adheres to applicable intra-governmental elimination guidance. This involves recording
transactions at a level that allows for identification of its governmental trading partners and for
reconciling the transactions/balances with trading partners on a quarterly basis. For its non-
Treasury and non-Homeland Security Customer Agencies, ARC accountants reconcile fiduciary

                                               38       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
account balances with their trading partners (Fiscal Service, Office of Personnel Management and
Department of Labor) after uploading account balances into the Intragovernmental Fiduciary
Confirmation System (IFCS). The Department of Treasury and the Department of Homeland
Security utilize IFCS to reconcile Treasury and Homeland Security agency fiduciary account
balances with trading partners. For the non-fiduciary transactions of its Customer Agencies,
ARC accountants prepare and submit confirmations to the appropriate trading partners in
accordance with the elimination reconciliation guidance. Upon submitting the confirmations to
the trading partners, ARC works with the trading partners to reconcile transactions/balances and
identify and record any necessary adjustments. Reconciliations are not performed for non-
Treasury Customer Agencies. Non-Treasury Customer Agencies receive confirmations only.

Document Numbering
All accounting entries recorded in Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on unfilled customer
orders and receivables. A system control alerts the user of the use of duplicate document numbers
on cash receipt and advance transactions. ARC has developed and implemented a standard
document-numbering scheme to avoid duplicate document processing and to enable readers of
ARC reports to better identify and/or determine the nature of transactions processed by ARC.
When an ARC user attempts to enter a transaction identification number that already exists,
Oracle issues an error message that alerts the user of the duplication.

Customer Agency Control Consideration

Customer Agencies should establish controls to:

•   Send approved and accurate documentation of unfilled customer orders, receivables, and cash
    receipts transactions, to ARC in the proper period.
•   Review unfilled customer orders, receivable and advance reports for completeness, accuracy,
    and validity.
•   Monitor and pursue collection of delinquent balances.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for the processing of unfilled customer orders, cash receipts,
   receivables, advances, and write-offs and observed ARC personnel process transactions, and
   determined that the transactions were processed in accordance with the procedures.
2. For a selection of unfilled customer orders, inspected documentation of Customer Agency
   authorization and determined that transactions were authorized by Customer Agencies.
3. For a selection of receivables, inspected documentation of Customer Agency authorization
   and determined that transactions were authorized by Customer Agencies.
4. For a selection of cash receipts, inspected documentation of Customer Agency authorization
   and determined that transactions were authorized by Customer Agencies.
5. For a selection of months, inspected Statement of Differences reconciliations and determined
   that reconciliations were documented and that any correcting entries were posted by an
   accounting technician or another accountant and reported in the subsequent accounting
   period.

                                             39        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
6. For a selection of quarters, inspected the Report on Receivables Due from the Public
   reconciliations and determined that reconciliations were documented.
7. For a selection of quarters, inspected Reports on Receivables Due from the Public and
   determined that they were reviewed by an ARC supervisory accountant.
8. Inspected a quarterly selection of intra-governmental confirmations and reconciliations and
   determined that confirmations were sent, reconciliations were documented, and trading
   partners identified.
9. Inspected a quarterly selection of non-Treasury and non-Homeland Security Customer
   Agency intra-governmental Fiduciary Confirmation System balances and determined that
   fiduciary account balances were reconciled with trading partner balances.
10. Inspected a selection of non-fiduciary transaction confirmations of ARC Customer Agencies
    and determined that ARC accountants prepared and submitted confirmations to the
    appropriate trading partners in accordance with the elimination reconciliation guidance.
11. Inspected a selection of transaction(s)/balance(s) reconciliations and determined that upon
    submitting the confirmations to the trading partners, ARC worked with the trading partners to
    reconcile transactions/balances and identify and record any necessary adjustments.
12. Inspected a selection of reconciliations and determined that confirmations are sent when
    differences are noted for non-Treasury Customer Agencies.
13. Observed an ARC staff member attempt to enter a transaction into Oracle with a document
    number that had already been entered into Oracle and noted that Oracle automatically rejected
    the entry of a duplicate document number.

No exceptions noted.




                                             40        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 4 - Deposits

Controls provide reasonable assurance that checks are secure and deposited timely by appropriate
personnel and documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for the safeguarding and recording of deposits.

Safeguarding Checks
Checks received by the mailroom are scanned individually with the supporting documentation
that came with each check. Each check with the documentation is saved as a separate file at this
location: \\vm-int-w-app-05\DSFilesBPD\OMS\DAS\Mail Services. The checks, along with the
original documentation, are sent to the A3F mail drop by the mail deliverer and signed for if
delivery confirmation was requested. An ARC accounting technician (who does not have
accounting system access to post accounts receivable transactions) receives, opens and logs all
checks received in the branch’s check deposit log. The same technician retrieves the scanned
images from \\vm-int-w-app-05\DSFilesBPD\OMS\DAS\Mail Services and saves each image in
the appropriate folder by branch. These scanned files are archived at the end of each month. For
reconciliation purposes, the check total scanned by mail services is compared to the number
received by placing a “yes” in the “check received?” column on each check log. This confirms
that all checks scanned at mail services were received and logged by the technician.

Checks are to be deposited as soon as possible after the purpose and validity of the check’s
issuance are identified. The accounting technician is responsible for processing deposits, but the
Customer Agency is responsible for researching the check’s purpose and validity. The checks are
locked in the ARC PSB safe located by the PSB supervisor until they are ready to be deposited.

Manual Deposits – Segregation of Duties
When the check is ready for manual deposit, a deposit ticket and the check are placed in a locked
bag and picked up by the mail clerk. A copy of the deposit ticket is retained by the ARC
accounting technician for comparison with the receipt and deposit ticket signed by the bank teller.
The mail clerk delivers the locked bag containing the deposit ticket and checks to the local federal
depository. The bag containing the bank teller’s deposit ticket and receipt are returned to the
branch office that processed the deposit. After the bank teller receipt and deposit ticket are
compared to the copy retained by the branch and the ARC accounting technician updates the
check deposit log to record the date the deposit was made, an independent ARC accounting
technician processes the cash receipt in the accounting system. ARC stopped processing manual
deposits as of December 31, 2012 since all Customer Agencies were migrated to the Over the
Counter Channel Application.

Paper Check Conversion System Deposits and Reconciliation
For customers using the Paper Check Conversion Over the Counter (PCC OTC) system, an ARC
accounting technician will scan each check into the PCC OTC system. The batch list is
automatically saved temporarily to the server until it is transmitted to the Federal Reserve Bank
(FRB) by the ARC accounting technician. Upon settlement with the FRB, the ARC accounting
technician reconciles the batch list with the paper checks and signs off to indicate the
reconciliation is complete. After reconciliation, the checks are held awaiting confirmation of the
deposit in the Financial Management Service’s deposit application, CA$HLINK II. Upon
confirmation, the ARC accounting technician destroys the checks. The cash receipt is recorded in
Oracle by an independent ARC accounting technician. ARC stopped processing checks using

                                               41       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
PCC OTC as of December 31, 2012 since all Customer Agencies were migrated to the Over the
Counter Channel Application.

Over the Counter Channel Application
Over the Counter Channel Application (OTCnet) is a web-based application that integrates the
functionality of PCC OTC and Treasury General Account Deposit Reporting Network (TGAnet).
OTCnet's design accommodates “check capture” and “deposit reporting and processing” using
electronic collection mechanisms instead of paper based processing. Throughout 2012, all
agencies migrated from manual deposits and PCC to OTCnet. All deposits were processed using
OTCnet starting on January 1, 2013.

On the “check capture” side of OTCnet, checks are scanned for deposit and a batch list is created.
The batch list is automatically saved temporarily to the server until it is transmitted to the Federal
Reserve Bank (FRB) by the ARC accounting technician. Upon settlement with the FRB, the
ARC accounting technician reconciles the batch list with the paper checks and signs off to
indicate the reconciliation is complete. After reconciliation, the checks are held awaiting
confirmation of the deposit in the Financial Management Service’s deposit application,
CA$HLINK II. Upon confirmation, the ARC accounting technician destroys the checks. The
cash receipt is recorded in Oracle by an independent ARC accounting technician. Note:
CA$HLINK II was deactivated December 31, 2012. The functions of CA$HLINK II are provided
by the Collections Information Repository (CIR, formerly TRS).

On the “deposit reporting and processing” side of OTCnet, an ARC accounting technician will
manually enter the deposit information into the OTCnet system. A deposit ticket and the check(s)
are sent in a locked money bag that is picked up by a mail clerk who then delivers it to the local
federal depository. A copy of the deposit ticket is retained by the ARC accounting technician for
comparison with the deposit receipt from the bank teller and the confirmed deposit ticket from the
OTCnet system. The money bag containing the bank teller's deposit receipt is returned to the
branch office that processed the deposit. After the bank teller receipt and OTCnet confirmed
deposit ticket are compared to the copy retained by the branch, the cash receipt is recorded in
Oracle by an independent ARC accounting technician.


Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for the safeguarding and recording of deposits and determined
   that ARC had documented procedures for the safeguarding and recording of deposits.
2. Inspected the checks received by the mailroom and the associated deposit check log and
   determined that the deposit check log agrees to the original checks..
3. Inspected a selection of check deposit logs and determined that an ARC administrative staff
   member who did not have accounting system access to post account receivable transactions,
   received, opened and logged all checks received in the branch’s check deposit log.
4. Inspected a selection of check deposit records and check issuance attributes and determined
   checks were deposited as soon as possible after the purpose and validity of the check’s
   issuance were identified.
5. During our testing we were unable to observe the manual deposit process since it was no
   longer used after December 31, 2012. We inspected the check log and noted there were two
   manual deposits prior to December 31, 2012. We inspected procedures and observed

                                                42        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
   example walkthroughs for manual deposits and determined ARC had procedures in place for
   manual deposits.
6. During testing, there were no PCC check deposits during the period and the process was no
   longer being used after December 31, 2012. We inspected procedures for performing the
   PCC reconciliation and determined ARC had procedures in place for the PCC process.
7. Inspected a selection of check deposits and the subsequent posting to Oracle of OTCnet
   confirmed deposit receipts to those retained by the ARC branch and determined that the total
   checks were posted completely and accurately to Oracle.


No exceptions noted.




                                            43        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 5 – Payroll Accruals

Controls provide reasonable assurance that period-end payroll accruals are processed timely,
reviewed, and properly documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of payroll accruals.

System Calculation of Accruals
Payroll accruals are recorded on a monthly basis and reversed in the subsequent accounting
period. The payroll accrual is a prorated calculation performed by the accounting system that is
based on the most recent payroll disbursement data available. To make its calculation, the
accounting system requires a payroll accountant to enter specific parameters (e.g., number or
percentage of workdays to accrue and the base pay period number).

Complementary Customer Agency Controls

•   Review the financial reports provided by ARC to ensure that payroll accruals are complete
    and accurate.

Tests of Operating Effectiveness and Results of Testing


1. Inspected written procedures for the processing of payroll accruals and determined that the
   procedures were formally documented for the processing of payroll accruals.
2. For a selection of months, inspected payroll accruals for a selection of Customer Agencies for
   entry into the system and determined that payroll accruals were entered timely.


No exceptions noted.




                                             44        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 6 – Payroll Disbursements

Controls provide reasonable assurance that payroll disbursement data (disbursed by a third-party)
is reviewed, reconciled, and properly documented in accordance with ARC policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of payroll disbursements.

Automated Payroll Posting Process
Third-party payroll processors transmit payroll files to ARC during the first and/or second weeks
after the end of a pay period, depending on the payroll provider and the need to record payroll
adjustments. Upon converting the data into a format that can be uploaded into Oracle, the ARC
payroll accountant reconciles the converted data to the original raw data from the third-party
processors. The ARC payroll accountant processes payroll entries using a batch interface that
posts summary payroll data to Oracle. The payroll accountant reviews and corrects transactions
that reject in the interface. A Discoverer report is used to identify those records that reject. The
payroll accountant contacts the customer for resolution of erroneous accounting codes, funding
issues, or other circumstances that would prevent the payroll from being recorded. Until the
errors are cleared, the data is viewed as invalid and will not be able to be posted to the general
ledger. If the third-party payroll processor provides adjustment files for additional transactions
between main payroll files, the ARC payroll accountant follows the same procedure for
processing these files.

Reconciliation – Payroll Activity
Payroll accountants prepare a monthly reconciliation of payroll disbursements recorded in Oracle
and payroll disbursements as reflected on the CARS Account Statement. The payroll accountant
investigates and resolves any differences identified. This reconciliation is reviewed and approved
by the supervisor or manager of ARC’s Central Accounting Branch. In addition, ARC prepares
monthly CARS Account Statement reconciliations from the general ledger to Treasury’s record.
Any reconciliation differences identified by the branch accountant who prepares the CARS
Account Statement reconciliation, that requires correction, are posted by another accountant or
accounting technician in a subsequent accounting period. ARC supervisory accountants review
and approve the CARS Account Statement/Fund Balance with Treasury reconciliations.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Verify that payroll processed by third-party providers is complete and accurate.
•   Review the financial reports provided by ARC to ensure that payroll disbursements are
    complete and accurate.




                                               45       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for the processing of payroll disbursements and determined that
   the consistent use of the procedures by staff was documented to help prevent the inaccurate,
   unauthorized, or untimely entry of payroll disbursements into ARC information systems.
2. Inspected an interface error report and determined that during the interface, input files were
   checked for errors and interface error reports were created if errors were identified and
   determined that data would not interface until errors were corrected.
3. For a selection of months, inspected payroll reconciliations and determined that
   reconciliations were performed and that any exceptions were resolved.
4. For a selection of months, inspected CARS Account Statement reconciliations and
   determined that reconciliations were performed and that any exceptions were resolved.


No exceptions noted.




                                             46        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 7 - USSGL

Controls provide reasonable assurance that transactions are processed in accordance with the U.S.
Standard General Ledger (USSGL) and Treasury Financial Manual (TFM) guidance.

Description of Controls

ARC has documented procedures for processing transactions consistent with the USSGL.

Transaction Set-up Controls
ARC records proprietary and budgetary accounting entries using the USSGL at the transaction
level. This is accomplished using a combination of transaction code, system setup, Sub-Ledger
Accounting (SLA) and data entry in Oracle. In addition, Oracle cross-validation rules have been
established to prevent transactions from being processed to inappropriate USSGL accounts.

ARC follows the TFM to establish accounting transaction posting models in Oracle. System
administrators require authorization from a supervisor or manager to establish new posting
models for transaction processing.

On an annual basis, ARC reviews the USSGL Board’s proposed and approved additions,
deletions and/or modifications to USSGL account titles and/or account descriptions to determine
their applicability to ARC Customer Agencies. Once the changes to the USSGL are approved by
Treasury’s Fiscal Service and the new TFM guidance is issued (generally mid-summer), ARC
supervisors and managers communicate the appropriate changes to system administrators to
ensure the accounting transaction posting models are revised.

General Ledger Account Reconciliations
Accountants perform general ledger account reconciliations (utilizing accounting system sub
ledgers or Excel spreadsheets) on balance sheet accounts except where account sub ledgers are
not made available to ARC, for supervisory review, to ensure related accounting transactions
were posted to the appropriate general ledger accounts. ARC accountants prepare budgetary to
proprietary account relationship reconciliations on a monthly basis, for supervisory review, to
ensure complete general ledger account posting for all recorded transactions. An accounting
technician or an accountant corrects invalid out-of-balance relationships.

FACTS I Edit Checks
ARC enters pre-closing adjusted trial balances for its non-Treasury customers, except for the
Department of Homeland Security, into the FACTS I system at the Treasury appropriation/fund
group level using USSGL accounts and attributes. Treasury’s Fiscal Service maintains the
FACTS I system. The FACTS I system checks that the trial balance has, in aggregate, equal debit
and credit balances before the trial balance can be submitted in FACTS I. FACTS I also flags
abnormal balances for scrutiny by an ARC accountant. After entering the adjusted trial balances
into FACTS I, ARC reviews the submitted balances and resolves any invalid abnormal balances
or out-of-balance conditions. Once any necessary corrections have been made, the accountant
submits the adjusted trial balance into the FACTS I system.

FACTS II Edit Checks
ARC submits the FACTS II files for its non-Treasury customers, except for the Department of
Homeland Security, using a bulk file upload. Accountants create the bulk files by running a job
within the Oracle application. Oracle requires the data to pass several edit checks before it will
create the bulk file. ARC manually uploads the FACTS II files into the FACTS II system.

                                              47       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Treasury’s Fiscal Service maintains the FACTS II system. The FACTS II system performs
USSGL edit checks and rejects any files that fail the edit checks. ARC investigates and resolves
any files rejected by the FACTS II system.

Treasury Information Executive Repository (TIER) Validation Checks
For ARC’s Treasury and Department of Homeland Security Customer Agencies, FACTS I and II
reporting requirements are met using TIER. TIER is a departmental data warehouse that receives
monthly uploaded financial accounting and budgetary data from the bureaus and other reporting
entities in a standardized format. Data submitted to TIER by an ARC accountant is validated
based on system-defined validation checks.

ARC utilizes custom solutions that extract accounting and budgetary data from Oracle to
generate necessary TIER data. TIER has a standardized chart of accounts that is compliant with
USSGL guidance issued by the Department of the Treasury. FACTS II edit checks are
incorporated in the TIER validation checks. After submitting the adjusted trial balances into
TIER, ARC accountants review the edit reports and resolve any invalid attributes or out-of-
balance conditions. ARC accountants document this review by completing the TIER Submission
Checklist, which is further reviewed by a supervisor.

Financial Statement Crosswalks
ARC accountants prepare a Balance Sheet, Statement of Net Cost and Statement of Budgetary
Resources for all Customer Agencies that are covered by the Chief Financial Officer Act and the
Accountability of Tax Dollars Act of 2002. The statements are submitted each quarter to the
Director of the Office of Management and Budget (OMB) and the Congress. Additionally, ARC
accountants prepare the Statement of Changes in Net Position, and Statement of Custodial Activity
(when applicable) for all Customer Agencies. ARC accountants compare TFM financial
statement crosswalks to ARC’s internally prepared financial statements to ensure compliance
with the Customer Agency's government wide reporting requirements. ARC investigates and
resolves any differences between TFM financial statement crosswalks and ARC’s internally
prepared financial statements.

Financial Statement Review
For Department of Treasury and Department of Homeland Security Customer Agencies, quarterly
financial statements are produced by departmental systems using the data submitted in TIER.
Quarterly consolidated financial statements are submitted to the Director of OMB and the
Congress by the Department. ARC accountants compare the quarterly financial statements to
ARC’s internally prepared financial statements, which is further reviewed by a supervisor, and
any differences are resolved.

Financial Statement Variance Analysis
For both Department of Treasury and Department of Homeland Security Customer Agencies,
accountants prepare a quarterly financial statement variance analysis. Explanations for variances
that exceed Department materiality thresholds must be provided to the Department. The
Department submits a consolidated analysis to OMB. The bureau variance analysis is reviewed
by an ARC supervisory accountant and approved by the bureau CFO or designee prior to
submission to the Department. The Homeland Security bureau variance analysis is also certified
by an ARC manager and the Homeland Security's CFO or designee also approves the variance
analysis.

For non-Treasury and non-Homeland Security Customer Agencies, accountants prepare a
quarterly financial statement variance analysis for interim periods based on the guidance in OMB

                                             48        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Circular A-136. Explanations for variances that exceed the OMB Circular A-136 guidelines are
provided to OMB. The variance analysis is reviewed by an ARC supervisory accountant prior to
submission to OMB.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Review and approve, prior to submission, the financial reports prepared by ARC to ensure
    that all reports prepared for external use are complete, accurate, and submitted in a timely
    manner.

Tests of Operating Effectiveness and Results of Testing


1. Inspected written procedures for the processing of transactions consistent with the USSGL
   and determined that procedures were documented.
2. Observed the processing of a transaction to an inappropriate USSGL account and noted the
   existence of Oracle cross-validation rules.
3. Inspected a list of users with access to change posting models and determined that system
   administrators had access to administer posting models.
4. For a selection of posting model changes and additions, inspected ARC supervisory approval
   of the changes and inspected TFM/USSGL guidance and determined that the changes and
   additions were authorized and that they were in agreement with TFM/USSGL guidance.
5. Inspected evidence of the annual review of USSGL account titles and descriptions and
   determined that the annual review was performed by ARC supervisors and Managers.
6. For a selection of months, inspected monthly general ledger account reconciliations and
   determined that reconciliations were performed, any exceptions were resolved and the
   reconciliation was reviewed by an ARC supervisor.
7. Inspected a selection of FACTS I edit check reports and determined that FACTS I was
   completed, reviewed, and any issues were resolved.
8. Inspected a selection of Reporting and Reconciliation Internal Control Checklists and
   determined that the FACTS I was completed.
9. Observed the staff run the Oracle job that creates the FACTS II bulk data upload file and
   noted that Oracle edit checks were applied to the data, and that the ARC accountant resolved
   any exceptions.
10. Inspected a selection of TIER Submission Checklists and determined that TIER submissions
    were reviewed by a supervisor.
11. For a selection of quarters for a selection of Customer Agencies, inspected ARC comparison
    of TFM financial statement crosswalk with ARC’s internally prepared financial statements
    and determined that ARC complied with reporting requirements.
12. Inspected results of ARC’s investigation of Treasury’s financial statement crosswalk and
    ARC’s internally prepared financial statements and determined that ARC investigated and
    resolved any differences.



                                             49       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
13. Inspected selection of quarterly financial statement reviews and determined that the
    reconciliations were reviewed and approved by a supervisor.
14. For a selection of months, inspected reconciliation of financial statements prepared by
    Treasury to internally prepared financial statements and determined that reconciliations were
    performed, any exceptions were resolved and they were reviewed by a supervisory accountant
    before submission.


No exceptions noted.




                                             50        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 8 - Accruals

Controls provide reasonable assurance that the period-end accruals are authorized, processed
timely, reviewed, reconciled, and properly documented in accordance with ARC policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of accruals.

Customer Review of Revenue and Expense Accruals
Accounting technicians record period-end accruals for goods and services provided/received, but
not billed/invoiced, in Oracle based on instruction provided from the Customer Agency.

For all Customer Agencies, except the Treasury Franchise Fund, accounting technicians record
period-end accruals for goods and services provided, but not billed in the accounting system
through standard accrual transactions.

For Treasury Franchise Fund Customer Agencies, accounting technicians record period-end
accruals for goods and services provided but not billed in Oracle using an automated journal entry
process. The amounts recorded are based on information provided by e-mail from the Customer
Agency. Accounting technicians enter information received from the Customer Agency into a
spreadsheet template. An accountant reviews the spreadsheet and converts it into a data file that
is automatically loaded into Oracle and reviewed and approved by a supervisory accountant.

Non-Invoice Accrual Reviews
Accountants record non-invoice related expense accruals, such as workers' compensation and
leave liability in Oracle. The workers' compensation accruals are based on historical trend
analysis and/or actual costs incurred. The leave liability accruals are based on data provided by
the Customer Agency's payroll provider or Human Resources office. For applicable Customer
Agencies, the ARC payroll accountant processes payroll leave accrual entries using a batch
interface that posts summary payroll data to Oracle. For non-batch interfaced leave accruals, a
supervisory accountant reviews the accrued employee benefits to determine that the accrual is
processed and posted.

TIER Submission Checklist
Supervisory accountants validate the quality of TIER data by reviewing an ARC accountant-
prepared TIER Submission Checklist, which includes verification that non-invoice related
expense accruals are posted at least quarterly.

General Ledger to Subledger Reconciliation
On a monthly basis, ARC accountants prepare a reconciliation of revenue and expense accrual
balances in the general ledger to the sub ledger detail, which is reviewed by a supervisor.
Accountants reconcile only billed revenue accruals since unbilled revenue accruals are recorded
directly in the general ledger. Any differences identified are corrected by an accounting
technician or accountant in the subsequent accounting period.

Budget Execution System Controls
Customer Agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at the

                                              51       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
various allocation levels.

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. System controls are
designed to prevent the user from apportioning more than was appropriated, and allocating more
than was apportioned. Decisions on control settings that permit or prevent spending beyond other
budget plan levels are determined by the Customer Agency. System controls are applied at the
fund level after passage of appropriation legislation and a high-level budget is loaded at the
allocation level. Upon receipt and input of a detailed financial plan, controls are established at a
more detailed level if desired by the Customer Agency.

Budget execution settings are determined by the Customer Agency and set-up in Oracle by the
CSB. System settings are reviewed with the Customer Agency on an annual basis. Budget plans
are input into Oracle by ARC Staff and independently reviewed.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on revenue and
expense accruals processed through standard accrual transactions. ARC has developed and
implemented a standard document-numbering scheme to avoid duplicate document processing
and to enable readers of ARC reports to better identify and/or determine the nature of transactions
processed by ARC. When an ARC user attempts to enter a transaction identification number that
already exists, Oracle issues an error message that alerts the user of the duplication.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Review open obligation and accrual reports for completeness, accuracy, and validity.
•   Approve and send revenue and expense accruals to ARC in a timely manner.
•   Communicate Customer Agency required levels of budget and spending controls to ARC.

Tests of Operating Effectiveness and Results of Testing


1. Inspected written procedures for the processing of accruals and observed ARC staff
   processing accruals, and noted that the processing was in accordance with the procedures.
2. For a selection of accruals, inspected documentation of Customer Agency authorization and
   supervisory accountant review and determined that the accruals were authorized and reviewed
   appropriately.
3. For a selection of months, inspected non-invoice batch payroll leave accruals and determined
   that the files were sent to ARC for processing and posting of summary payroll data to the core
   accounting system.
4. For a selection of months, inspected non-invoice non-batch leave accrual and determined that
   a supervisory accountant reviewed the manually calculated leave accruals to ensure they were
   properly calculated and input into Oracle.

                                               52       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
5. For a selection of months, inspected TIER Submission Checklists for evidence of ARC
   supervisory review of TIER data and timeliness of submission and determined that
   submissions have been reviewed.
6. For a selection of months, inspected scorecard documentation and determined that scorecards
   were maintained for supervisory review.
7. For a selection of months, inspected reconciliation of revenue and expense accrual balances in
   the general ledger to the subledger detail and determined that reconciliations were performed
   and that any exceptions were resolved.
8. For a selection of Customer Agencies, inspected budget instructions and determined that for
   the current year they specified their budget controls, they were input by CSB staff, and then
   reviewed by a supervisor for completeness and accuracy.
9. Observed an ARC staff member attempt to enter a transaction into Oracle with a document
   number that had already been entered into Oracle and noted that Oracle automatically rejected
   the entry of a duplicate document number.


No exceptions noted.




                                             53        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 9 – Government-Wide Reporting

Controls provide reasonable assurance that Government-wide reporting is performed in
accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the preparation of government-wide
reports.

FACTS I & II
ARC policies require the submission of FACTS I and FACTS II reports based on Fiscal Service’s
criteria for these applications. All reports must pass all FACTS edit checks. For non-Treasury
Customer Agencies, except the Department of Homeland Security, supervisory accountants
review all submissions prepared by accountants and review all data to ensure all reporting
deadlines are met. All fourth quarter FACTS II submissions require certification by an ARC
supervisor or manager, or other designated Customer Agency representative.

TIER
Treasury reporting entities are required to submit financial accounting and budgetary data each
month to TIER, Treasury’s data warehouse within Treasury’s submission timeline which is
generally the third business day of the subsequent month. The Department of Homeland Security
reporting entities are required to submit financial accounting and budgetary data each month to
TIER, Homeland Security’s data warehouse, within Homeland Security’s submission timeline.
To meet this requirement, ARC performs the Oracle month-end close processes on the second
business day after the end of the month. Supervisory accountants validate the quality of TIER
data to ensure reporting deadlines are met by reviewing an accountant-prepared TIER Submission
Checklist. The TIER Submission Checklist consists of internally and Treasury department
defined data quality standards.

Prompt Payment
ARC follows the Treasury guidelines for the Prompt Payment report for its customers. ARC
prepares these reports timely. Independent accountants review these reports before submission.
Treasury also requires that a Customer Agency representative sign the Prompt Payment reports.
EFT is no longer required for submission to Treasury and beginning with FY 2013, Prompt
Payment submission is quarterly.

Financial Statements
ARC accountants prepare a Balance Sheet, Statement of Net Cost and Statement of Budgetary
Resources for all Customer Agencies that are covered by the Chief Financial Officer Act and the
Accountability of Tax Dollars Act of 2002. The statements are to be submitted each quarter to
the Director of the OMB and the Congress. Additionally, ARC accountants prepare the Statement
of Changes in Net Position and Statement of Custodial Activity (when applicable) for all
Customer Agencies. ARC accountants compare TFM financial statement crosswalks to ARC’s
internally prepared financial statements to ensure compliance with the reporting requirements.
ARC investigates and resolves any differences between TFM financial statement crosswalks and
ARC’s internally prepared financial statements.

Financial Statement Review
For Department of Treasury and Department of Homeland Security Customer Agencies, quarterly
financial statements are produced by departmental systems using the data submitted in TIER.

                                            54        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Quarterly consolidated financial statements are submitted to the Director of OMB and the
Congress by the Department. ARC accountants compare the quarterly financial statements to
ARC’s internally prepared financial statements, for supervisory review, and resolves any
differences.

Financial Statement Variance Analysis
For both Department of Treasury and Department of Homeland Security Customer Agencies,
accountants prepare a quarterly financial statement variance analysis. Explanations for variances
that exceed Department materiality thresholds must be provided to the Department. The
Department submits a consolidated analysis to OMB. The bureau variance analysis is reviewed
by an ARC supervisory accountant prior to submission to the Department.

For non-Treasury and non-Homeland Security Customer Agencies, accountants prepare a
quarterly financial statement variance analysis for interim periods based on the guidance in OMB
Circular A-136. Explanations for variances that exceed the OMB Circular A-136 guidelines are
provided to OMB with the quarterly financial statement submission. The variance analysis is
reviewed by an ARC supervisory accountant prior to submission to OMB.

Receivables
ARC accountants prepare and submit a quarterly Report on Receivables Due from the Public for
all Customer Agencies. The report is reviewed by an ARC supervisory accountant prior to
submission to Treasury.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Review and approve, prior to submission, the financial reports prepared by ARC to ensure
    that all reports prepared for external use are complete, accurate, and submitted in a timely
    manner.
•   Provide certification of FACTS II to ARC prior to ARC’s FACTS II system certification.

Tests of Operating Effectiveness and Results of Testing


1. Inspected written procedures and determined that ARC had documented procedures for the
   preparation of government-wide reports.
2. For a selection of fourth quarter FACTS II submissions, inspected evidence of management
   review and determined that they were reviewed and certified.
3. For a selection of months, inspected TIER Submission Checklists for evidence of ARC
   supervisory review of TIER data and timeliness of submission and determined that
   submissions have been reviewed.
4. For a selection of months, inspected scorecard documentation and determined that scorecards
   are maintained for supervisory review.
5. For a selection of months, inspected EFT and Prompt Payment reports and determined that
   they were reviewed by a supervisory accountant before submission.



                                             55        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
6. For a selection of months, inspected reconciliations of financial statements prepared by FARS
   to internally prepared financial statements and determined that reconciliations were reviewed
   and that any differences were resolved.
7. For a selection of months, inspected reconciliation of financial statements prepared by FARS
   to internally prepared financial statements and determined that reconciliations were
   performed and any exceptions were resolved and were reviewed by a supervisory accountant
   before submission.
8. For a selection of quarters, inspected the Report on Receivables Due from the Public
   reconciliations and determined that reconciliations were documented.
9. For a selection of quarters, inspected Reports on Receivables Due from the Public and
   determined that they were reviewed by an ARC supervisory accountant.

No exceptions noted.




                                             56       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 10 – Administrative Spending

Controls provide reasonable assurance that administrative spending controls are reviewed,
reconciled, and documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures related to administrative spending controls.

Budget Execution System Controls
Customer Agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at various allocation levels.

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. System controls are
designed to prevent the user from apportioning more than was appropriated, and allocating more
than was apportioned. Decisions on control settings that permit or prevent spending beyond other
budget plan levels are determined by the Customer Agency. System controls are applied at the
fund level after passage of appropriation legislation and a high-level budget is loaded at the
allocation level. Upon receipt and input of a detailed financial plan, controls are established at a
more detailed level if desired by the Customer Agency.

Budget execution settings are determined by the Customer agency and set-up in Oracle by the
CSB. System settings are reviewed with the Customer Agency on an annual basis. Budget plans
are input into Oracle by ARC Staff and independently reviewed.

Reconciliation – Budgetary and Proprietary Account Relationships
ARC accountants prepare budgetary to proprietary account relationship reconciliations on a
monthly basis, for supervisory review, to ensure complete general ledger account posting for all
recorded transactions. An accounting technician or an accountant corrects invalid out-of-balance
relationships.

Reconciliations – Fund Balance With Treasury (Activity and Balances)
A Federal Agency’s FBWT account assists the agency in monitoring use of budget authority.
Treasury’s Fiscal Service provides the following reports to inform agencies of their FBWT and to
assist agencies in reconciling their general ledger balances to Fiscal Service balances:
    • Statement of Differences (Disbursements/Deposits) provides the net difference between
         Fiscal Service’s control totals and the agency’s CARS Statements of Transactions
         (formerly FMS 224 )submission.
    • CARS Account Statement (Transactions) provides increases and decreases to balances,
         detailed at the submitting Agency Location Code (ALC) levels.
    • CARS Account Statement (Account Summary) provides beginning balance, current
         month net activity and ending balance.




                                               57       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
ARC accountants reduce the probability of month-end differences relating to disbursements by
comparing preliminary CARS Statements of Transactions (formerly FMS 224 )disbursement
data to month-to-date data obtained from, PIR, CIR, , CARS TDO Payments, and IPAC systems.
Any differences identified by the accountant are corrected by an accounting technician or another
accountant prior to the close of the accounting period.

ARC accountants perform Statement of Differences reconciliations, for supervisory review, as
well as reconciliations of CARS Account Statement balances to general ledger FBWT balances.
If differences are identified during the reconciliations, ARC accountants determine the cause of
the difference and the action, if any, that is needed to resolve the discrepancy. If the difference
requires correction, an entry is posted in the accounting system by an accounting technician or
another accountant.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Properly approve and accurately enter obligations into the procurement and travel systems in
    the proper period.
•   Approve and return relocation travel vouchers to RSB for processing in moveLINQ in a
    timely manner.
•   Send approved requests to record manual obligations to ARC in a timely manner.
•   Review open obligation reports for completeness, accuracy, and validity.
•   Review and approve listing of users with current Oracle, PRISM, IPP, webTA, and GovTrip
    access to ensure appropriateness.
•   Communicate Customer Agency required levels of budget and spending controls to ARC.

Tests of Operating Effectiveness and Results of Testing

1. Inspected the written procedures related to administrative spending, inspected reconciliations,
   and observed ARC staff process transactions and determined that processing was in
   accordance with the procedures.
2. For a selection of Customer Agencies, inspected evidence and determined that for the year
   they specified their budget controls, were input into Oracle by CSB staff, and were reviewed
   by a supervisor for completeness and accuracy.
3. For a selection of months, inspected budgetary to proprietary account relationship
   reconciliations and determined that reconciliations were performed and that any exceptions
   were resolved.
4. For a selection of months for a selection of Customer Agencies, inspected evidence and
   determined that the accountants perform reconciliations, of CARS Account Statement
   balances to general ledger FBWT balances and supervisory review was completed.


No exceptions noted.




                                              58        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 11 – Budget

Controls provide reasonable assurance that budget entries are documented and processed in
accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of budget entries.

Budget Documentation
For Customer Agency appropriations subject to annual enactment, ARC enters an appropriation
based on the amount approved in the annual appropriations process, as supported by the
automatic amount calculated during a continuing resolution (CR), the enacted appropriation
legislation, or Treasury documentation. ARC enters an apportionment in Oracle from the
Customer Agency's SF 132, Apportionment and Reapportionment Schedule. Upon receipt of the
Customer Agency's budget plan or reprogramming guidance, ARC allocates funding to the
Customer Agency's accounting values according to the detail provided by the customer.

For Customer Agency sources of funds that are not subject to the annual appropriations process,
such as reimbursable or revolving accounts, ARC enters an appropriation and apportionment
based on the Customer Agency's SF 132 and recorded reimbursable activity for those accounts
subject to the apportionment process. ARC allocates funding to the Customer Agency's
accounting values based on the Customer Agency's budget plan or recorded reimbursable activity.

For sources of funds not subject to both the annual appropriations process and the apportionment
process, ARC enters an appropriation and apportionment at the fund level and allocates funding
to the Customer Agency's accounting values based on the Customer Agency's budget plan,
recorded reimbursable activity, or reprogramming guidance.

Budget Execution System Controls
Customer Agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at various allocation levels.

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. System controls are
designed to prevent the user from apportioning more than was appropriated and allocating more
than was apportioned. Decisions on control settings that permit or prevent spending beyond other
budget plan levels are determined by the Customer Agency. System controls are applied at the
fund level after passage of appropriation legislation and a high-level budget is loaded at the
allocation level. Upon receipt and input of a detailed financial plan, controls are established at a
more detailed level if desired by the Customer Agency.

Budget execution settings are determined by the Customer Agency and set-up in Oracle by the
Business Technology Division’s Customer Service Branch (CSB). System settings are reviewed
with the Customer Agency on an annual basis. Budget plans are input into Oracle by ARC Staff
and independently reviewed.

Reconciliation – Budgetary and Proprietary Account Relationships
ARC accountants prepare budgetary to proprietary account relationship reconciliations on a
monthly basis, for supervisory review, to ensure complete general ledger account posting for all

                                               59       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
recorded transactions. An accounting technician or an accountant corrects invalid out-of-balance
relationships.

Reconciliation – Fund Balance With Treasury
A Federal Agency’s FBWT assists the agency in monitoring budget authority. Treasury’s Fiscal
Service provides the following reports to inform agencies of their FBWT and to assist agencies in
reconciling their general ledger balances to Fiscal Service balances:

    •   CARS Account Statement (Transactions) provides increases and decreases to balances,
        detailed at the submitting ALC levels.
    •   CARS Account Statement (Account Summary) provides beginning balance, current
        month net activity and ending balance.

ARC accountants perform reconciliations, for supervisory review, of CARS Account Statement
balances to general ledger FBWT balances.            If differences are identified during the
reconciliations, ARC accountants determine the cause of the difference and the action, if any, that
is needed to resolve the discrepancy. If the difference requires correction, an entry is posted in
the accounting system by an accounting technician, another accountant or a budget analyst.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on budget documents.
ARC has developed and implemented a standard document-numbering scheme to avoid duplicate
document processing and to enable readers of ARC reports to better identify and/or determine the
nature of transactions processed by ARC. When an ARC user attempts to enter a transaction
identification number that already exists, Oracle issues an error message that alerts the user of the
duplication.

Complementary Customer Agency Controls

Customer Agencies should establish controls to:

•   Review the financial reports provided by ARC to ensure that budget entries are complete and
    accurate.
•   Send approved budget plans to ARC in a timely manner.
•   Communicate Customer Agency required levels of budget and spending controls to ARC.
•   Communicate OMB apportionment status to ARC.
•   Monitor usage of budget authority during periods of operation under a Continuing Resolution
    to ensure that OMB directed apportionment limits are not exceeded.

Tests of Operating Effectiveness and Results of Testing


1. Inspected written procedures for budget entries and determined that they were consistent with
   the control description.
2. For a selection of Customer Agencies, inspected evidence and determined that for the year
   they specified their budget controls, they were input by CSB staff, and then reviewed by a
   supervisor for completeness and accuracy.

                                               60        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
3. For a selection of months, inspected monthly general ledger account reconciliations and
   determined that reconciliations were performed, any exceptions were resolved and the
   recompilation was reviewed by a supervisor.
4. For a selection of months and Customer Agencies, inspected evidence and determined that the
   accountants performed reconciliations of CARS Account Statement balances to general
   ledger FBWT balances and supervisory review was completed.
5. Observed an ARC staff member attempt to enter a transaction into Oracle with a document
   number that had already been entered into Oracle and noted that Oracle automatically rejected
   the entry of a duplicate document number.


No exceptions noted.




                                             61       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 12 – Manual Journal Entries

Controls provide reasonable assurance that manual journal entries are authorized.

Description of Controls

ARC has documented procedures for staff to follow for the processing of manual journal entries.

Journal Entry Approval
A user’s profile in Oracle determines whether or not the user can prepare and/or approve a
manual journal entry. Oracle system controls require that all manual journal entries be routed to
an approver. Once a user has entered a journal entry, Oracle automatically routes the journal
entry to an authorized approver's queue.

Document Numbering
Oracle assigns all manual journal entries a specific journal category and journal source and ARC
follows a standard document numbering scheme. Documentation supporting the journal entry
accompanies each request for approval. The approver compares the documentation to Oracle and
approves the journal entry.

Complementary Customer Agency Controls

•   Send valid and approved requests to record manual journal entries to ARC in a timely
    manner.
•   Maintain and communicate to ARC a list of individuals authorized to submit manual journal
    entries that are initiated by the Customer Agency.

Tests of Operating Effectiveness and Results of Testing


1. Inspected written procedures for the processing of manual journal entries and determined that
   procedures were documented.
2. Inspected the list of Oracle users with the ability to create manual journal entries and
   determined that they were assigned a supervisor in Oracle and would be subject to the
   automated approval work flow.
3. Inspected the list of Oracle users with the ability to approve manual journal entries and the list
   of users with the ability to enter manual journal entries and determined that users without a
   specified supervisor did not have the ability to enter a manual journal entry.
4. For a selection of journal entries, inspected hardcopy supporting documentation and related
   Oracle journal entries and determined that the manual journal entries had proper hardcopy
   documentation and were authorized.
5. Observed an ARC staff member attempt to enter a transaction into Oracle with a document
   number that had already been entered into Oracle and noted that Oracle automatically rejected
   the entry of a duplicate document number.


No exceptions noted.



                                               62        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
Control Objective 13 - Federal Investments

Controls provide reasonable assurance that Federal investments in Government Account Series
(GAS) investments are authorized, reviewed, processed timely, reconciled, and properly
documented in accordance with Customer Agency policies and procedures.

Description of Controls

ARC accountants process purchases of Federal investments in accordance with Customer Agency
instruction. Instructions include the type and amount of securities to be purchased or the amount
of residual cash to be retained. An independent accountant reviews investment purchases.

All investment activity in GAS investments is recorded in general ledger through a daily interface
between the Federal Investment System (FedInvest), a subsystem of the Government Agency
Investment Services System, and Oracle. Accountants reconcile investment general ledger
accounts to the FedInvest application on a monthly basis to ensure all investment activity has
been properly recorded. A supervisor reviews investment account reconciliations.

Tests of Operating Effectiveness and Results of Testing
1. For a selection of Customer Agencies, inspected investment instructions and determined that
   they were provided to ARC and defined the investment objectives for the agencies.
2. For a selection of investment purchases, inspected evidence and determined that an
   independent accountant reviewed the purchases.
3. For a selection of months for a selection of Customer Agencies inspected evidence and
   determined that the accountants reconciled investment general ledger accounts to the
   FedInvest application in a timely manner.


No exceptions noted.




                                              63       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 14 – Supplier and Bank Record Changes

Controls provide reasonable assurance that changes made to Supplier and Bank records require
appropriate system access and the changes are reviewed, approved, and documented in
accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures related to Supplier and Bank record changes for staff to follow.

Segregation of Duties – Changes to Supplier and Bank Records
User profiles set by Oracle system administrators, as authorized by the user’s supervisor or
manager, ensure that only authorized Central Accounting Branch (CAB) employees are able to
make changes to Supplier and Bank records. Authorized employees who have Supplier and Bank
record change privileges do not have authorization to approve vendor payments in the accounting
system allowing for proper segregation of duties.

Changes to Supplier and Bank records that include taxpayer identification number, address, or
bank routing/account number require:

•   A source document from System for Award Management (SAM) or a document supplied by a
    vendor or customer, when SAM is not applicable, - i.e., grants and loans, payroll database,
    and/or e-mail, etc. ), and
•   Independent review.

Review – Changes to Supplier and Bank Records
Authorized employees review and process changes to Supplier and Bank records and maintain the
supporting source documentation as described above.

A reviewing employee compares changes to Supplier and Bank records from the Oracle system to
the change request documents and electronically signs the audit report indicating review. The
reviewing employee does not have access to make changes to Supplier and Bank records in
Oracle. Therefore, if errors were made, the reviewing employee would provide a copy of the
source document to an authorized employee for correction and subsequent review.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures and determined that ARC had documented procedures for
   Supplier and Bank record changes.
2. Inspected a list of users with access to update, modify, or delete Supplier and Bank records
   and determined that users had the appropriate privileges.
3. Inspected a list of users with access to process vendor payments and determined that users
   had the appropriate privileges.
4. For a selection of changes to Supplier and Bank records, inspected the reviewed report signed
   by the reviewing employee and determined that the Supplier and Bank record changes were
   reviewed and approved.
No exceptions noted.


                                             64       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
PROCUREMENT PROCESSING CONTROLS

Control Objective 15 – Acquisitions and Contracts

Controls provide reasonable assurance that acquisitions are compliant with Federal laws,
regulations and policies.

Description of Controls

All acquisitions using simplified acquisition procedures must use the Simplified Acquisition
Folder (PD F 5477) issued by Treasury. The inside front and back folder pages represent
checklist items for simplified acquisition procurement actions. Each folder checklist and
supporting file documentation are reviewed by a warranted Contracting Officer, and subsequently
approved when signed on the inside front page.

All commercial item and Uniform Contract Format acquisitions not using simplified acquisition
procedures contain a checklist of file contents completed by a Contract Specialist. Signature by
the Contracting Officer on the award document certifies the checklist is accurate and that file
contents meet legal and regulatory requirements.

Tests of Operating Effectiveness and Results of Testing


1. Inspected a selection of acquisition awards using simplified acquisition procedures and
   determined that the folders were completed.
2. Inspected a selection of other than simplified acquisitions awards using commercial item and
   Uniform Contract Format procedures and determined that the folders contained a completed
   checklist, signed by a contract specialist, and reviewed by a Contract Officer.
3. Inspected the authorization levels in PRISM and determined that warranted Contracting
   Officers have specified dollar limits.
No exceptions noted.




                                             65       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 16 – Sufficiently Funded Requisitions

Controls provide reasonable assurance that contract obligations are supported by approved
requisitions.

Description of Controls

Contract officers are warranted by Treasury at specified dollar approval thresholds based on
experience and training. The automated contract writing system (PRISM) contains award
approval limits for each Warranted Contracting Officer at their respective approval dollar
threshold prohibiting approval of awards at dollar amounts above their authorized level.

PRISM contains controls to ensure procurement awards are not made without sufficient funding
provided by a Purchase Requisition (PR) which is tied to each procurement action in the system.

Tests of Operating Effectiveness and Results of Testing


1. Inspected award authorizations in PRISM and determined that Warranted Contracting
   Officers approved awards within specified dollar limits.
2. Inspected award authorizations in PRISM and determined that approved awards contained
   sufficient funding on PRs in the system.


No exceptions noted.




                                            66        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
GENERAL COMPUTER CONTROLS

Control Objective 17 – System Access

Controls provide reasonable assurance that systems are protected from unauthorized access in
accordance with ARC policies and procedures.

Description of Controls

ARC follows Fiscal Service policies and procedures that were developed, documented,
disseminated, and that are periodically reviewed and updated to facilitate the implementation of
logical access controls. Additionally, procedures specific to Oracle, PRISM, webTA, GovTrip,
moveLINQ, and IPP have been documented. The logical access controls are based on Treasury
and Fiscal Service policies and standards (Treasury Information Technology Security Program
TDP-85-01 Volume I), which, in turn, are based on the applicable Federal laws and regulations.
These controls are the system-based mechanisms that are used to specify which individuals
and/or processes are to have access to a specific system resource and the type of access that is to
be permitted. These controls limit user access to information and restrict their system access to
their designated level.

Oracle
Access to Oracle is restricted to users with a valid logon ID and password. Oracle
logons/sessions are encrypted to protect the information, making it unintelligible to all but the
intended users. Sessions are protected using 128-bit Secure Sockets Layer (SSL) encryption.
Prospective Oracle users must complete, sign and submit an approved Administrative Resource
Center System Access Form for End User Applications to request access to Oracle. The end
user’s signature indicates that they are familiar with the Privacy Act information and security
requirements and will comply with computer security requirements established by Fiscal Service
and ARC. The form defines the user’s access specifications, which will allow the user to perform
his/her duties in Oracle. Changes to existing user profiles require an e-mail to be sent to the
Oracle Support Team mailbox by an authorized individual requesting the change, and defining
what access should be added/deleted/changed. In order to remove a user’s access, Customer
Agencies submit a request for account termination. At that time, the Oracle user access is end-
dated in the system to remove their access. Additionally, each day the Oracle Support Team
generates and reviews a list of Oracle user accounts that have been inactive for 80 days. An e-
mail is sent to the user warning them that their account will be end-dated if they maintain an
inactive status for 90 days. After 90 days of inactivity, the user’s access will be end-dated.
Annually, the ARC sends out a list of system users to each Customer Agency for review. The
Oracle Support Team updates the permissions for users based on the responses received from the
Customer Agencies.

Oracle 11 uses a multi-org functionality to strengthen security within the application. Each
Customer Agency is configured as an operating unit in Oracle. When a new responsibility is
created by the Application Administrators, it is mapped to a specific operating unit by a system
profile option. The multi-org functionality helps ensure that a user assigned to a responsibility
(which in turn is mapped to an operating unit) can only see or enter data for that customer (or
operating unit). Oracle also provides a value set security feature, assigned to a responsibility,
which further controls new data entry in the operating unit by limiting the list of values (LOV) for
the accounting flexfield to those values specific to the customer (or operating unit).

With Oracle R12, responsibilities are assigned to specific Multi-Org Access Control (MOAC)
groups, in which case, the MOAC group determines which data can be accessed by users. Data

                                               67       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
entry is also restricted, allowing only values within the MOAC group to be selected for
transaction processing. A MOAC group can be comprised of one operating unit (ledger) or
multiple ones.


Only the SYSADMIN account controlled by Oracle On Demand are assigned the System
Administrator responsibility in the Oracle application. CSB and QCB staff are assigned ARC
Application Administrator responsibility in the Oracle application. The employees with the ARC
Application Administrator responsibility have limited access to perform operational functions in
Oracle, specifically limited to the month-end closing, during customer conversions (as directed by
the functional teams) or emergency situations that can be approved by a supervisor or manager
after the fact. Additionally, the individuals with Oracle ARC Application Administrator
privileges perform multiple functions, including that of the Oracle Support team members. As a
result, these individuals periodically require temporary access privileges of a functional user in
order to address user inquiries. An edit check prevents an Oracle ARC Application Administrator
from adding or removing any responsibilities from their own user ID.

The CSB/QCB/Project and Technical Services Branch (PTSB) managers can be assigned the
ARC Application Administrator responsibility in situations where the manager deems the access
is required. This responsibility is granted on a temporary basis with the proper request and
approval and will be end-dated once the access is no longer necessary.

Administrative access to the underlying Oracle servers and databases is limited to Oracle on
Demand server and database administrators.

User Identifications (IDs) are assigned to Fiscal Service employees consistent with their network
logon ID. User IDs for Customer Agency staff are assigned by an ARC system administrator. A
temporary password is assigned to all users by calling the Oracle Support Team. Oracle Support
Team personnel are responsible for verifying the caller’s identity. Once the user logs onto the
accounting system, they must establish their own unique password. An Oracle user’s password
must meet unique password configuration, password complexity and password expiration criteria
to ensure strong password security.

Oracle access attempt logs are reviewed daily by the PRISM Support Team to identify if users
attempted to unsuccessfully access the system five or more times in the day. When five or more
unsuccessful access attempts were made, an e-mail is sent to the user indicating that the access
attempts were noted and requesting that the user notify ARC if the attempts were not made by the
user.

PRISM
Access to PRISM is restricted to users with a valid logon ID and password. PRISM
logons/sessions are encrypted to protect the information, making it unintelligible to all but the
intended users. Sessions are protected using 128-bit SSL encryption. Prospective PRISM users
must complete, sign, and submit an approved Administrative Resource Center System Access
Form for End User Applications to request access to PRISM. The end user’s signature indicates
that they are familiar with the Privacy Act information and security requirements and will comply
with computer security requirements established by Fiscal Service and ARC. The form defines
the user’s access specifications, which will allow the user to perform his/her duties in PRISM.
Changes to existing user profiles require an e-mail to be sent to the PRISM Support Team
mailbox by an authorized individual at the Customer Agency, requesting the change, and defining
what access should be added/deleted/changed. In order to remove a user’s access, Customer
Agencies submit a request for account termination. At that time, the PRISM user access is end-

                                              68       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
dated in the system to remove their access. Additionally, each day the Oracle Support Team
generates and reviews a list of PRISM user accounts that have been inactive for 80 days. An e-
mail is sent to the user warning them that their account will be end-dated if they maintain an
inactive status for 90 days. After 90 days of inactivity, the user’s account will be end-dated.
Annually, the ARC sends out a list of users to each Customer Agency for review. Included for
review are requisitioner and buyer approval limits by user. The PRISM Support Team updates
the access according to the responses received from the Customer Agencies.

User access within PRISM is further limited by only allowing users to approve the addition or
modification of records to the operating units they have been assigned in Oracle. PRISM utilizes
the existing security features and functionality of Oracle. For example, new users are setup in
Oracle and assigned appropriate PRISM responsibilities. Within Oracle, the responsibilities are
mapped to PRISM security groups. The user and security groups then flow to PRISM. Within
the PRISM application, users are assigned additional responsibilities as authorized on the access
form.

Updates to a user’s PRISM responsibilities are audited by independent employees within CSB.
The changes to functional access privileges are reviewed and compared to the changes to the
BTD’s Team Responsibilities matrix to determine whether or not the access privileges are
appropriate. Follow up is performed to validate the addition of any privileges that are not on the
BTD’s Team Responsibilities matrix.

The System Administrator responsibility in PRISM is limited to certain employees requiring the
access for the performance of job duties. Administrative access to the underlying PRISM servers
and databases is limited to Oracle on Demand server and database administrators and specific
BTD employees.

User IDs are assigned to Fiscal Service employees consistent with their network logon ID. User
IDs for Customer Agency staff who utilize PRISM are assigned by an ARC system administrator.
A temporary password is assigned to all users by calling the PRISM Support Team. PRISM
Support Team personnel are responsible for verifying the caller’s identity prior to establishing the
user’s password. Once the user logs onto the system, they must establish their own unique
password. A user’s password must meet unique password configuration, password complexity
and password expiration criteria to ensure strong password security.

PRISM access attempt logs are reviewed daily by the Oracle Support Team to identify if users
attempted to unsuccessfully access the system five or more times in the day. When five or more
unsuccessful access attempts were made, an e-mail is sent to the user indicating that the access
attempts were noted and requesting that the user notify ARC if the attempts were not made by the
user.

webTA1
Access to webTA is restricted to users with a valid logon ID and password. Access to webTA is
provided using 128-bit SSL encryption. All personnel require access to webTA in order to
complete time and attendance submission. Users granted standard employee access privileges are
not required to submit an access form. However, users that require elevated access privileges
(e.g., timekeeper, supervisor) are added to the webTA system following receipt of a supervisor-
approved Administrative Resource Center System Access Form for End User Applications. The
end user’s signature indicates they are familiar with the Privacy Act information and security

1
    The scope of the description of webTA controls applies only to full service webTA customers.

                                                    69        Control Objectives, Related Controls, and
                                                                       Tests of Operating Effectiveness
requirements and will comply with computer security rules. The form defines the user’s access
specifications, which will allow the user to perform his/her duties in webTA. Changes to existing
user profiles require a new access form to be submitted by the Customer Agency. Upon receipt
of an Administrative Resource Center System Access Form for End User Applications requesting
the deletion of a webTA user or upon receipt of a timesheet coded as “Final,” an HR
Administrator in PLSB removes the assigned responsibilities. Annually, an HR Administrator
sends out a list of timekeepers and supervisors to each Customer Agency for the agency to use in
performing a periodic review of access. The list is limited to those timekeepers and supervisors
who are not currently responsible for validating or approving time for an active employee at the
Customer Agency. The review ensures that these employees who do not currently validate or
approve time on a regular basis still require their role as a timekeeper or supervisor.

User access within webTA is further limited by the role the user is assigned in the system (i.e.,
Employee, Timekeeper, Supervisor, etc.). The System Administrator and HR Administrator roles
in webTA are limited to certain employees, ensuring no one serves in both administrator roles.
Periodically, there is a need for the System Administrator to research a problem in a production
instance using an HR Role. When such an event arises, the System Administrator can be
temporarily granted HR specific roles with supervisor approval. Administrative access to the
underlying webTA servers and databases is limited to server and database administrators within
the ISS.

An HR Administrator assigns user IDs to Fiscal Service employees consistent with their network
logon ID. User IDs for Customer Agency staff who utilize webTA as timekeepers or supervisors
are also assigned by an HR Administrator. An HR Administrator also assigns a temporary
password to users by an e-mail. Once the user logs onto the system, they must establish their own
unique password. A user’s password must meet unique password configuration, password
complexity and password expiration criteria to ensure strong password security.

GovTrip
Access to GovTrip is restricted to users with a valid logon ID and password. All users must
complete the self-registration process. An account token will be forwarded to the user by the TSD
helpdesk after the self-registration information is verified for the user to activate their account.
Budget Reviewers and Approving Officials must complete, sign, and submit an approved
Administrative Resource Center Online Applications Access Request or have an approving
official or agency travel contact authorize access via e-mail. The end user’s signature indicates
they are familiar with the Privacy Act information, security requirements, and will comply with
computer security requirements established by Fiscal Service and ARC. The form defines the
user’s access specifications, which will allow the user to perform his/her duties in GovTrip.
Changes to a user’s identification (i.e., name change) or to the user’s role in GovTrip require an
Administrative Resource Center Online Applications Access Request to be resubmitted or an e-
mail from the user copying his/her approving official or agency travel contact. Upon receipt of
an Exit Clearance form or e-mail request, GovTrip access is set to indicate that the user has
terminated. On an annual basis, TSD staff creates reports of GovTrip users and distributes the
reports to Customer Agency Travel contacts for review and verification of the accounts.

GovTrip has user access levels that separate permissions from highest to lowest into these
categories:
    • System administrators (NGMS only)
    • Application administrators; Designated TDSB staff
    • Application administrators; Customer Service Help Desk Tier 2, Designated TDSB staff
    • Customer Service Help Desk Tier 1, Designated TDSB Staff
    • Approving Officials and Budget Reviewers

                                               70       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
    •   User; Traveler and Document Preparer
    •   Terminated Users; Invitational Travelers

Access privileges are granted in accordance with the concept of least privilege required.

Users must establish their own unique GovTrip password. A user’s password must meet unique
password configuration, password complexity, and password expiration criteria to ensure strong
password security.

moveLINQ
Access to moveLINQ is restricted to authorized TSD users with a valid logon ID and password.
The process for requesting, establishing, issuing, and closing user accounts is controlled through
the use of the moveLINQ Online Application Access Request Form which requires
lead/supervisor approval. The form defines the user’s access specifications, which will allow the
user to perform his/her duties in moveLINQ. Changes to a user’s identification (i.e., name
change) or to the user’s role in moveLINQ also require a moveLINQ Online Application Access
Request Form. The user access list is reviewed by management every time a change is made or
six months from the last review, whichever is longer.

User IDs are assigned to authorized TSD employees consistent with their network logon ID. A
temporary password is assigned to moveLINQ users in person or by phone. Once the user logs
onto moveLINQ, they must establish their own unique password which is encrypted. A user’s
password must meet unique password configuration, password complexity and password
expiration criteria to ensure strong password security.

moveLINQ has user access roles that separate permissions from highest to lowest into these
categories:
    • Admin
    • HHS_Reviewer
    • MGMT1
    • MGMT2
    • RC
    • RC_HHS_Reviewer
    • SAS_Accting
    • STEP
    • Tax_Prep
    • Tech
    • Viewer
    • VIP Reviewer

Access privileges are granted in accordance with the concept of least privilege required.

See Control Objective 19 for further discussion of the physical access control process.

Invoice Processing Platform (IPP)
Access to IPP is restricted to users with a valid logon ID and password. Internal and external
users must complete, sign, and submit an approved Administrative Resource Center Online
Applications Access Request form. Customer users must submit a Certificate of Completion for
the On-line Invoice Approver Training located on their ARC customer webpage, unless they are
on the list of attendees that completed the training given during their customer conversion to IPP.
The end user’s signature indicates they are familiar with the Privacy Act information, security
requirements, and will comply with computer security requirements established by Fiscal Service
                                              71        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
and ARC. The form defines the user’s access specifications, which will allow the user to perform
his/her duties in IPP. The user will receive an e-mail with a user id and one containing a
temporary password from the Treasury UPS User Administration. Annually, FRB Boston sends a
list of all IPP users in the Fiscal Service Admin Disburser Account for recertification. ARC
reaches out to the customer agency IPP contact and returns the results to FRB Boston.

The IPP Fiscal Service Admin Disburser Account has user access levels that separate permissions
into these categories from highest to lowest:

    •   Administrator
    •   Invoice Approver
    •   Processor
    •   Viewer

Access is in accordance with the concept of least privilege required.

Users must establish their own unique IPP password. A user’s password must meet unique
password configuration, password complexity and password expiration criteria to ensure strong
password security that follow the configuration requirements established by Fiscal Service
Treasury Web Applications Infrastructure (TWAI).


Complementary Customer Agency Controls

Customer Agencies should establish controls to:
•   Review and approve listing of users with current Oracle, PRISM, IPP, webTA, and GovTrip
    access to ensure appropriateness.
•   Ensure exiting employee timecards are coded “Final” as this will help ensure that HR staff
    deactivate the employee’s webTA access.

Tests of Operating Effectiveness and Results of Testing


1. Inspected the Treasury Information Technology Security Program TDP-85-01 Volumes I and
   II and determined that security policies and procedures were documented.
2. Inspected Oracle user account management procedures and password procedures and
   determined that the security policies and procedures are documented for Oracle.
3. Inspected PRISM user account management procedures and password procedures and
   determined that security policies and procedures are documented for PRISM.
4. Inspected webTA user account management procedures and password procedures and
   determined that security policies and procedures are documented.
5. Inspected GovTrip user account management procedures and password procedures and
   determined that security policies and procedures are documented for GovTrip.
6. Inspected MoveLINQ user account management procedures and password procedures and
   determined that security policies and procedures are documented for MoveLINQ.
7. Inspected IPP user account management procedures and password procedures and determined
   whether security policies and procedures were documented.

                                               72       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
8. Observed a logon session and noted that the Oracle users require a valid login ID and
   password and that logins/sessions are encrypted with 128-bit SSL encryption.
9. For a selection of new Oracle users, inspected user access request forms and determined that
   the forms are completed, access was authorized, and contained employees’ signature to
   denote that they understand the privacy act requirements.
10. For a selection of changes to Oracle user profiles, inspected authorizing documentation and
    determined that updates to access rights were authorized.
11. Inspected a selection of requests for termination of Customer Agencies employees’ Oracle
    access and evidence of when the account was end dated in the Oracle system and determined
    that requests for termination of access from customer agencies are competed in a timely
    manner.
12. For a selection of Customer Agencies, inspected evidence of the annual Oracle user access
    review and determined that the annual reviews are performed.
13. Inspected the list of user accounts and corresponding access within Oracle and determined
    that that each user’s access is restricted to distinct operating units or Customer Agencies.
14. Inspected the user roles assigned to the Oracle Application administrators and compared them
    to the BTD Allowable Responsibilities Table, and determined that the functional user
    permissions were restricted and commensurate with job responsibilities.
15. Observed an Oracle System Administrator attempting to add responsibilities to their user ID,
    and noted that system administrators could not add responsibilities to their user IDs.
16. For a selection of users that were granted temporary Admin Access, inspected documentation
    authorizing use of the temporary Admin Access and determined that the temporary Admin
    Access was documented, approved, and revoked when no longer needed.
17. Inspected the access control lists for Oracle and determined that Application Administrator
    privileges were commensurate with job responsibilities.
18. Inspected the Oracle user list and determined that the accounts follow the naming convention.
19. Inspected Oracle profile options and determined that the Oracle accounts are configured to be
    locked-out after 30 minutes of inactivity.
20. Inspected Oracle profile options, and determined that failed logins, password complexity,
    generation, and length requirements are configured in accordance with ARC password
    standards.
21. Inspected Oracle profile options for system administrators and users, and determined that
    password lifespan days established for system administrators and users were configured in
    accordance with ARC password standards.
22. For a selection of dates, inspected Oracle violation logs and evidence of review and
    determined that violations logs are reviewed.
            •   Exceptions Noted: The Oracle Invalid Login Report was not reviewed or
                produced for 5 of the 13 days selected.
                Remediation: Inspected updated procedures for reviewing the Oracle Invalid
                Login Reports and determined they were documented. For a selection of dates,
                inspected Oracle violation logs and determined that violations logs were
                reviewed.
23. Observed a logon session and noted that user ID and Password are required and that PRISM
    logins/sessions are encrypted with 128-bit SSL encryption

                                             73        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
24. For a selection of new PRISM users, inspected user access request forms and determined that
    the forms are completed and access was authorized.
25. For a selection of changes to PRISM user accounts, inspected authorizing documentation and
    determined that updates to the accounts were authorized.
26. Inspected a list of separated employees and a list of PRISM users and determined that
    separated employees did not retain access to the PRISM.
27. For a selection of days, inspected the inactive reviews and determined that the reviews are
    performed on a daily basis.
           •   Exceptions Noted: The Oracle Duties Inactivity Report was not reviewed or
               produced for 1 of the 13 days selected.
           •   Remediation: Inspected updated procedures for reviewing Oracle Duties
               Inactivity Report and determined they were documented. For a selection of
               dates, inspected Oracle Inactivity reports and determined that inactivity reports
               were reviewed.
28. Inspected evidence of distribution of PRISM user lists for review and determined that that
    user account lists are distributed on an annual basis for review.
29. Observed the production PRISM system for a user and noted that the system can be
    configured as defined in the control and in the New User Setup document.
30. There were no changes to functional user access requests processed during the period for
    PRISM.
31. Inspected the access control lists for PRISM and determined that Application Administrator
    privileges were commensurate with job responsibilities.
32. Inspected the PRISM user list and determined that accounts appeared to follow the naming
    convention, using first initial and second initial if necessary and a last name.
33. Observed the PRISM Support Team member creating a new account in the PRISM system
    and noted that upon first login the user was immediately directed to reset their password.
34. Inspected PRISM password settings and determined that failed logins, password complexity,
    aging, generation, and length requirements are configured in accordance with ARC password
    standards.
35. Inspected PRISM configuration settings and determined that the PRISM sessions are
    configured to time-out if they remained inactive for 20 minutes.
36. For a selection of dates, inspected PRISM violation logs and evidence of review and
    determined that violations logs are reviewed.
           •   Exceptions Noted: The PRISM Invalid Login Report was not reviewed or
               produced for 2 of the 13 days selected.
           •   Remediation: Inspected updated procedures for reviewing the PRISM Invalid
               Login Reports, and determined that they were documented. For a selection of
               dates, inspected PRISM violation logs determined that violations logs and reports
               were reviewed.
37. Observed a logon session and noted that webTA logins/sessions required user name and
    password.
38. Observed a user log into webTA and noted that connections to webTA are encrypted utilizing
    128-bit SSL encryption.

                                            74        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
39. For a selection of new and modified webTA users with elevated privileges, inspected user
    access request forms and determined that the forms are completed and access is authorized.
40. Inspected a list of separated employees and a list of webTA users and determined that no
    separated employees retained access to the webTA application following termination.
41. For a selection of Customer Agencies, inspected evidence of distribution of a list of webTA
    supervisors and timekeepers for annual user account review by the customer agency and
    determined that annual reviews of access are completed.
42. Inspected the Fiscal Service user privileges within webTA and determined that users are
    assigned in a role based security configuration.
43. Inspected the Fiscal Service user privileges within webTA and determined that users assigned
    HR Administrator did not have Administrator Access.
44. Inspected the webTA user privileges for a selection of customer agencies and determined that
    users are assigned in a role based security configuration, and users assigned HR
    Administrator did not have Administrator Access.
45. Inspected the webTA user privileges for a selection of customer agencies, the Fiscal Service
    group and the Fiscal Service employee list and determined that users with Administrator
    access were restricted to employees in the BTD group.
46. Observed webTA for an initial login and noted that the user is required to create a new
    password at first login.
47. Inspected webTA password settings and determined that failed logins, password complexity,
    aging, generation, and length requirements are configured in accordance with ARC password
    standards.
48. Inspected webTA configuration settings and determined that webTA sessions are configured
    to time-out if they remained inactive for 10 minutes.
49. Observed a user access the GovTrip system and noted that a user is required to be
    authenticated prior to accessing the system.
50. For a selection of new GovTrip users, inspected confirmation e-mails and determined that the
    user accounts were authorized.
51. For a selection of changes to GovTrip users, inspected authorizing documentation and
    determined that access changes are documented and access is authorized.
52. Inspected a list of separated employees and a list of GovTrip users, and determined that the
    separated employees did not retain access to the GovTrip application.
53. Inspected evidence of distribution of GovTrip user lists for review and determined that user
    account lists are distributed on an annual basis for review.
54. Inspected the user privileges with GovTrip and determined that users are assigned in a role
    based security configuration from highest to lowest.
55. Observed a user attempting to change their password to an invalid setting and noted that the
    system automatically prevented the use of password that did not conform to the requirements.
56. Observed a moveLINQ user login to the web based system and noted that they are required to
    enter a user id and password.
57. Inspected a selection of reviewed moveLINQ user access lists and determined that the review
    of access was performed.



                                             75       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
58. Inspected documentation for a selection of added moveLINQ users and determined that the
    requests are documented and approved.
59. Inspected a selection of moveLINQ modification requests and determined that the requests
    are documented and approved.
60. Inspected a selection of moveLINQ termination requests and determined that the removal of
    access is documented and performed.
61. Inspected the list of ARC separations and the active list of movLINQ accounts and
    determined there are no accounts of terminated employees on the system.
62. Inspected the current moveLINQ user list and determined that accounts are assigned with
    network IDs.
63. Observed and noted that a moveLINQ user must reset their password upon initial login.
64. Observed a moveLINQ user attempt to change their password to non-compliant passwords to
    test length and complexity requirements and noted that the system prevented the changes.
65. Observed a moveLINQ user enter the incorrect password three times and noted that the
    system locked the user account.
66. Inspected the user privileges with moveLINQ and determined that users are assigned in a role
    based security configuration from highest to lowest.
67. Observed an IPP user login to the system and noted that they are required to enter a user id
    and password.
68. Inspected the annual IPP account recertification supporting documentation and determined
    that ARC contacted Customer Agencies and the results were returned to FRB Boston.
69. Inspected documentation for a selection of added IPP users and determined that the requests
    were documented and approved.
70. Inspected the list of ARC separations and the active list of IPP accounts and determined there
    were no accounts of terminated employees on the system.
71. Inspected the user privileges with IPP and determined that users were assigned in a role based
    security configuration from highest to lowest.


No exceptions noted, except as described above.




                                              76       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 18 – System Changes

Controls provide reasonable assurance that system software and application changes are tested,
approved, and documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for testing, approving, and documenting changes. ARC System
Administrators are facilitators of the formal change management process via My Oracle Support,
Oracle on Demand’s web-based service request system.

Oracle and PRISM
For Oracle and PRISM, ARC uses iET /My Oracle Support to document key steps for each
change: including the initial request, approval, and implementation into production.

ARC processes standard software releases (i.e., patches) for both Oracle and PRISM.
Additionally, ARC processes customized application extension changes to Oracle. The ability to
process and apply Oracle and PRISM changes is restricted to the database administrators under
the coordination of Oracle on Demand.

ARC Application Administrators, as designees of the system owner, serve as the primary
initiators of change requests. The following is indicated in the request: all the affected parties, a
description of the change, the applicable instance, and the requested date of the change. PTSB
staff develops customizations in separate development instances. QCB staff test changes by
running test scripts and analyzing the results. Upon successful completion of testing, QCB staff
approves the change request and forward it to the performer of the change, Oracle on Demand
database administrators. After the approved request has been completed, the performer updates
the request in iET /My Oracle Support accordingly, and the request is then closed.

For emergency changes to a production instance of Oracle or PRISM, ARC requires verbal
approval from a designated on-call manager (for all production instances). ARC Application
Administrators document the emergency change in iET /My Oracle Support on the next business
day.

webTA
ARC has a webTA maintenance agreement in place with immixTechnology, a vendor for Kronos’
webTA product.

For webTA, ARC applies standard software releases (i.e., patches) only. Unlike Oracle, webTA
does not have application extensions that are customizable by ARC.

When a new webTA release is received from Kronos (the developer of webTA), QCB staff test
the new release in a separate test instance by running test scripts and analyzing the results. Upon
successful completion of customer acceptance testing, the QCB staff forward a request for
applying the new webTA release to production to the appropriate parties for approval. The ability
to apply webTA releases is restricted to the database administrators under the coordination of
ISS. The new webTA release is not applied to production until it has been successfully tested and
approved.




                                               77        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
GovTrip
GovTrip is hosted and maintained by NGMS at their facility. NGMS informs TSD of scheduled
updated system releases and the changes contained therein. System changes are also initiated by
TSD Analysts who make enhancement requests to NGMS for changes to be included by NGMS
in future scheduled release updates. TSD analysts test all applicable GovTrip changes in a
GovTrip acceptance test environment. If any of the changes included in a scheduled GovTrip
release update fail TSD’s acceptance testing, NGMS may delay implementation of the release
update. TSD has documented procedures for testing GovTrip changes. Guidance is provided to
customer contacts on any changes.

moveLINQ
moveLINQ is hosted by ISS and maintained at Fiscal Service. mLINQS informs the RSB
Manager and moveLINQ System Administrators of scheduled updated system releases and the
changes contained therein.      System changes are also initiated by moveLINQ System
Administrators who make enhancement requests to mLINQS for changes to be included by
mLINQS in future scheduled release updates. moveLINQ System Administrators and users test
all moveLINQ changes in moveLINQ test environments. If any of the changes included in a
scheduled moveLINQ release update fail the testing, RSB may delay implementation of the
update until the release passes the testing. RSB has documented procedures for testing and
implementing moveLINQ changes. RSB uses the Fiscal Service’s iET to track changes to the
system.

Invoice Processing Platform (IPP)
IPP is a web-based system hosted by the Federal Reserve Bank of Boston (FRBB). FRBB
notifies all primary agency users in advance of any new IPP release and holds review/preview
meetings to discuss all known changes as well as potential changes for the next release. During
the “preview” section of the meeting, agencies can rank the proposed changes for the next
release. In addition, FRBB publishes testing schedules and provides the agencies an opportunity
to test the changes in a QA environment prior to deploying the code into IPP Production.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures and determined that ARC had documented procedures for
   testing, approving, and documenting changes.
2. Observed iET and noted that the system was designed to retain the necessary change
   management documentation and noted when a change to iET is made.
3. Inspected a selection of changes processed in the iET/My Oracle Support and determined that
   the changes were tested and approved prior to implementation to the production environment.
4. Inspected the OOD contract and determined that changes to Oracle and PRISM are
   coordinated with OOD database administrators.
5. Inspected the maintenance agreement and determined that the agreement contained system
   upgrade and maintenance provisions.
6. Inquired of management about the emergency change process, inspected iET and determined
   that there were no emergency changes processed for Oracle and PRISM.
7. Inspected the webTA system maintenance agreement and determined that it contained system
   maintenance provisions and that it was current.
8. Inquired of management about the upgrade and emergency change process for webTA,
   inspected iET and determined that there were no upgrades or emergency changes processed
   for webTA.
                                            78        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
9. Inspected the GovTrip system maintenance agreement and determined that it contained
   system maintenance provisions and that it was current.
10. For a selection of GovTrip changes, inspected documentation of testing and determined that
    changes were tested prior to implementation in production.
11. Inspected written procedures and determined that testing GovTrip changes were completed in
    accordance with ARC procedures.
12. Inspected the moveLINQ system maintenance agreement and determined that it contained
    system maintenance provisions and that it was current.
13. For a selection of moveLINQ changes, inspected documentation of testing and determined
    that changes were tested prior to implementation in production.
14. Inspected written procedures for testing moveLINQ changes and determined that change
    procedures were formally documented.
15. Observed iET and noted that the system was designed to retain the necessary change
    management documentation and noted when a change to iET was made.


No exceptions noted.




                                            79       Control Objectives, Related Controls, and
                                                              Tests of Operating Effectiveness
Control Objective 19 – Non-interruptive System Service

Controls provide reasonable assurance that interruptions due to operational failures are
appropriately limited.

Description of Controls

Fiscal Service has documented policies and procedures for controlling physical access to Fiscal
Service buildings and to the data center. These include:
    •   Identification of sensitive/critical areas to which access needs to be restricted.
    •   Physical access controls designed to detect unauthorized access.
    •   Procedures for log reviews and investigation of violations.
The Security Branch issues employee badges, after performing security background checks and
fingerprinting.
Employees are required to have badges available at all times upon request.
Terminated employees are required to surrender identification badges and are removed from the
Physical Access Control System (PACS) immediately.
The webTA, and moveLINQ servers reside in ISS’s data center. Physical access to the ISS Data
Center is restricted to authorized users only. An employee needing access to the data center must
have his/her Branch Manager request access. The requests are made through iET, a workflow
system that is used to approve data center access. After the Branch Manager completes and
submits the iET request form, requests are forwarded to ISS's data center managers for approval
in the iET. If ISS approves the request, the Fiscal Service Division of Security and Emergency
Programs (DSEP) Security Branch grants access via PACS. Only designated DSEP specialists
have access to PACS. Access to all sensitive areas requires use of a badge. The use of a badge
provides an audit trail that is reviewed by ISS management monthly for potential access
violations. Any unauthorized access attempts are followed-up on by contacting the individual’s
supervisor.

Individuals without badge access to the data center must be escorted to the command center and
are required to sign in/out of a Visitor log to be issued a data center visitor badge. Visitor badges
do not have access to the data center, but rather designate the individual as a visitor. This log is
maintained at the main entrance to the data center.

Vendors that are authorized to have a badge are issued a one-day badge and must leave their
access badge onsite following completion of work in the data center. A log of One-Day badges is
maintained and reviewed daily.

ISS performs a monthly review and reconciliation of individuals with data center access to
individuals authorized to have data center access. Additionally, ISS performs an annual review
and recertification of individuals with access to the data center. If an individual is found to have
unauthorized data center access, ISS will, based on the individual’s need for access, make a
decision whether to request that DSEP remove their data center access or whether to provide
authorization for their access.

From Fiscal Service’s location, web sites, FTP servers, web servers, and aspects of intrusion
detection are monitored every ten minutes with a combination of software monitoring tools. The
availability of network infrastructure, such as switches and firewalls are monitored with a
combination of software monitoring tools. ISS's data center is physically monitored by

                                                80        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
environmental monitoring software that provides continuous checking and alarming capabilities
for temperature changes, water, and humidity threats. Fire detection and suppression systems are
installed in the data center. Redundant battery-powered uninterruptible power supplies and a
backup generator protect the data center from an unplanned loss of power. Redundant air
conditioning systems protect data center computers from overheating in the event of air
conditioning equipment failure.      ISS provides operations, support, capacity planning,
performance monitoring, networking, security monitoring, development, change management,
back up, hardware acquisitions and maintenance, and installation support for ARC.

Oracle
System operations manuals are provided to each employee assigned system maintenance
responsibilities. The Oracle Support Team, within CSB, is available for users to call if they are
experiencing difficulties with the system. In addition, Oracle support personnel have access to
internal application setup and security documentation, as well as various manuals and
documentation produced by the Oracle Corporation.

PRISM
PRISM user manuals are provided to end users. The PRISM Support Team within CSB, is
available for end users to call if they are experiencing difficulties with the system, and PRISM
application administrators have access to internal application setup and security documentation,
as well as various manuals and documentation produced by Compusearch.

webTA
webTA support personnel have access to online documentation produced by Kronos. The Human
Resources Support Desk is available for users to call if they are experiencing difficulties with the
system. QCB acts as a liaison between the Human Resources Support Desk and ISS to resolve
system issues.

ISS performs differential backups of the production system nightly and performs a full tape
backup weekly. The monthly backup tapes are sent to a long-term offsite facility.

See Control Objective 20 for further discussion of the backup process.

GovTrip
ARC TSD staff investigates and attempts to resolve any system issues noticed by the ARC staff
or reported to TSD by GovTrip users. When possible, TSD staff resolves GovTrip issues. If
TSD staff cannot resolve an issue, the issue is escalated to NGMS. TSD notifies system users of
the length of the expected outage or malfunction and notifies them again when the issue is
resolved.

moveLINQ
ARC purchases new license agreements annually from mLINQS, which include all upgrades and
service packs, monthly per diem rates, Federal travel regulation updates, and unlimited technical
support.

moveLINQ System Administrators investigate any system issues noticed by the ISS Database
Administrators or reported to them by moveLINQ users. When possible, moveLINQ System
Administrators resolve moveLINQ issues. If the administrator cannot resolve an issue, the issue
is escalated to mLINQS, the vendor. The System Administrator notifies the users of the length of
the expected problem and notifies them again when the issue is resolved.



                                               81       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
ISS performs differential backups of the moveLINQ production database nightly and performs a
full tape backup weekly. The nightly backups are kept on-site for four weeks. The monthly full
backup tapes are sent to a long-term off-site facility for two years.

See Control Objective 20 for further discussion of the backup process.

RSB maintains the data in the moveLINQ system for six years and three months.

Invoice Processing Platform (IPP)
IPP is a web-based system hosted by the Federal Reserve Bank of Boston (FRBB). FRBB has a
customer service center for both agencies and suppliers including a help desk phone line and e-
mail address. When IPP system issues arise, Fiscal Service sends an e-mail to the IPP Customer
Support Center at FRBB for investigation and resolution by FRBB.

Tests of Operating Effectiveness and Results of Testing

1. Inspected physical access policies and procedures for the data center and determined that they
   were documented and that they included the identification of sensitive/critical areas to which
   access needs to be restricted, physical access controls designed to detect unauthorized access,
   and procedures for log reviews and investigation of violations.
2. Observed physical access controls of Fiscal Service buildings and the ISS data center to noted
   that security guards, video cameras, badge readers, and locked doors were in place and in
   operation to restrict access.
3. Observed persons entering Fiscal Service buildings and noted that persons were required to
   place any materials, packages, bundles, etc. onto an x-ray machine, and additionally were
   required to pass through a walkthrough metal detector.
4. Observed persons entering Fiscal Service buildings and noted that an activation of the
   walkthrough metal detector resulted in further screening by the security guard, utilizing a
   handheld metal detector to identify the source of activation.
5. Observed an entrant swipe their badge into the access control system and noted that the
   controls system granted access to authorized personnel.
6. Inspected a list of employees with card key access to the data center and tape storage room
   from the card security system and an organizational employee listing showing employees
   requiring access to the data center and tape storage room and determined that physical access
   to the ISS data center was restricted to authorized employees only.
7. For a selection of employees and contractors granted access to the data center, inspected the
   iET record for granting access and determined that access was approved by the data center
   manager.
8. For a selection of dates, inspected visitor logs and determined that visitor logs were used.
9. For a selection of dates, inspected the One Day Badge logs and determined that an inventory
   of vendor badges was performed.
10. Inspected documentation of the monthly review of physical access privileges to the data
    center and determined that access privileges were reviewed.
11. Inspected documentation of the annual recertification of physical access privileges to the data
    center and determined that access privileges were recertified.
12. Observed Manage Engine OP Manager and HP Site Scope, and noted that these applications
    are installed and in use by ISS staff.
                                               82       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
13. Observed variance monitoring logs and noted that they automatically generated alerts from
    HP’s Site Scope and determined that the application provided monitoring over websites, FTP
    servers, and web servers and that ISS staff reviewed these logs and alerts.
14. Observed the Andover monitoring application and noted that the application was installed
    and used to monitor ISS data center environmental conditions.
15. Observed the ISS data center and noted that sprinklers, hand-held fire extinguishers, and
    raised floors were present.
16. Inspected completed maintenance work orders and inspection reports for the uninterruptible
    power supply (UPS), and the emergency power generator and determined that the generator
    and UPS were maintained.
17. Observed deployed environmental controls and noted that environmental controls were
    present.
18. Observed Oracle operations manuals and noted that the manuals were available to support
    personnel.
19. Observed internal application setup and security documentation, as well as various manuals
    and noted produced by Oracle Corporation and determined that Oracle support personnel had
    adequate access to materials.
20. Observed PRISM application setup and security documentation and system manuals and
    noted that documentation was available to support personnel.
21. Inquired of management and determined that the PRISM Support Team fielded calls for
    incidents related to PRISM.
22. Inspected ARC’s maintenance agreement for webTA and determined that it was current.
23. Inspected a backup schedule and backup log report of the production system and determined
    that nightly differential and weekly full tape backups are performed
24. Observed the Iron Mountain SecureSync website and noted if WebTA monthly backup tapes
    were sent to a long-term offsite facility.
25. Inspected the GovTrip incident escalation procedures and determined that incident escalation
    procedures are documented and available to support ARC staff personnel in investigating and
    attempting to resolve any system issues.
26. Inspected the GovTrip incident escalation procedures and determined that if TSD staff cannot
    resolve an issue they escalate the issue to NGMS.
27. Inspected ARC’s maintenance agreement with moveLINQS and determined that it required
    moveLINQS to provide software and technical support for moveLINQ.
28. Inspected RSB System Administrators escalation procedures and determined that when an
    RSB Administrator cannot resolve an issue, they escalate the issue to mLINQS.
29. Inspected the agreement with the offsite storage vendor and determined that a formal
    agreement was in place for the offsite storage of data in real time.
No exceptions noted.




                                             83       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 20 – Records Maintenance

Controls provide reasonable assurance that source document files are retained and safeguarded in
accordance with ARC and Fiscal Service’s Records Management Office policies and procedures.

Description of Controls

moveLINQ
ISS performs backups of specified distributed systems and applications as identified by the data
owners. These backups are performed by the guidelines set forth in the Standard Operating
Procedures. Once the backups have been completed, the media can be moved to an alternate
facility as long as the data is encrypted. Once media is identified as needing to be moved off-site,
Enterprise Infrastructure Branch (EIB)/Data Archival and Retrieval Team (DART) is notified
with the specified media ID numbers and the desired retention period. EIB/DART will remove
the specified media from the tape library and send it to the Fiscal Service Warehouse and
Operations Center in sealed containers. The location of media is tracked by the various systems
that create the images on the media using data backup utilities. In addition, EIB/DART maintains
copies of all transmittal sheets that list the media sent in each shipment. Once a week media is
picked up and returned by the off-site storage provider. Long-term offsite storage is provided
through a contract. Authority to recall tapes from off-site is limited to those individuals identified
on a list maintained by the off-site storage provider.

Based on the requirements for the data in the accounting, procurement and relocation systems,
backup tapes are created daily, weekly, and monthly. Daily backups are retained onsite for four
weeks in the data center tape vault. Weekly backups are retained for eight weeks onsite and
monthly backup tapes for two years to indefinitely depending on the data contained, are stored
offsite with a tape storage vendor. For the HR time clock system tapes are created weekly and
stored off site for two to eleven years depending on the data.

When tapes are returned from long-term storage, ISS reconciles the shipment that they have
received to their records of the tapes expected to be returned.

On an annual basis, ISS performs a full physical inventory of all backup tapes that are in Fiscal
Service’s possession, both at the data center tape library in Parkersburg, West Virginia and at the
Warehouse and Operations Center.

Network File Servers
Differential tape backups of network servers are created daily. On a weekly basis, ISS completes
a full back up of all ARC shared network files to a data tape. ISS retains the backup tapes for five
weeks.

Record Storage
Autonomy is a National Archives and Records Administration (NARA) approved records storage
system used by ARC. Hard copy data records are kept in folders and/or binders on-site for one or
two years. When hard copy data records are ready to be transferred off-site, they are either stored
in boxes or they are scanned and stored electronically.

Data records that will be retained in hard copy are packed into boxes and sent to off-site storage.
Prior to sending the boxes off-site, a description of the data being stored in the box, including the
box’s latest document date, and approved retention authority is entered into Autonomy. Fiscal
Service’s Records Management Office approves the box for storage and produces a label that is


                                                84        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
placed on the box. The label includes a unique box number, bar code and box description. The
destruction date is calculated using the approved retention period and the latest document date.

Hard copy data records may also be scanned and metadata is recorded in Autonomy. Data
records are stored in Autonomy folders based on the data's calculated destruction date using the
approved retention period and the latest document date. This method provides for quicker access
to archived data.

For relocation documents, active hard copy records are locked after hours. Inactive and closed
hard copy records are maintained in a locked onsite storage room.

Tests of Operating Effectiveness and Results of Testing

1. Observed the online tape management system and noted that data was encrypted prior to
   being written to tape and sent off site.
2. Inspected a list of individuals with authority to recall tapes from offsite storage and their job
   descriptions and determined that authority to recall tapes was commensurate with job
   responsibilities.
3. Observed the online tape management system and contingency site Tape Manifests and noted
   that tapes were kept at three separate locations.
4. Inspected the agreement with the offsite storage vendor and determined that a formal
   agreement was in place for the offsite storage of media.
5. Observed Operations Personnel step through the process of opening received packages of
   tapes from Iron Mountain and noted that they compared the contents of the package to the
   tape management records.
6. Inspected the full physical inventory documents of all backup tapes that were in Fiscal
   Service’s possession and determined that the annual tape inventory was performed.
7. For a selected network file server used by ARC, inspected system-generated backup
   schedules and backup logs and determined that daily differential backups and weekly full
   backups of the file server were scheduled and successfully completed.
8. Observed the location of the on-site hard copy records and noted that the hard copy records
   were stored on-site in folders for specified time period.
9. Inspected an example of a hard copy records offsite shipment box and determined that
   appropriate descriptions were documented.
10. Observed hardcopy records scanned into the Autonomy and noted that they were scanned.
11. Inspected hard copy records destruction logs and determined that the log identifies the hard
    copy records that were destroyed, date approved, and approved by Manager of the files
12. Observed the Autonomy system and noted that the records could be created, requested, and
    saved electronically using Autonomy, which was maintained by ASB.
13. Observed the location of the active hard copy data records and noted that the hard copy
    records were locked after hours.
14. Observed the location of the inactive hard copy data records and noted that the hard copy
    records were stored in a locked onsite storage room.




                                               85       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
15. Inspected the list of authorized individuals that had access to the onsite storage room and
    determined that only authorized individuals had access.


No exceptions noted.




                                            86        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
V. OTHER INFORMATION PROVIDED BY THE
   ADMINISTRATIVE RESOURCE CENTER




                87        Other Information Provided by the
                            Administrative Resource Center
CONTINGENCY PLANNING

System Back Up
The Oracle Federal Financials (Oracle) accounting system has a contingency plan managed by
the Administrative Resource Center (ARC). There is a formal ARC Business Continuity Plan
(BCP), which was last updated in January 2013. All essential Oracle functions will be performed
with the support of ARC employees. Full disaster recovery testing is performed on an annual
basis in conjunction with the Bureau of the Fiscal Service’s (Office of Information Technology
and security services (ISS), Data Center’s Disaster Recovery Plan (DRP). The Oracle primary
database servers, located at Oracle on Demand's primary site in Austin, TX, are replicated near
real time using Data Guard to a contingency location. Oracle's Network File System (NFS)
serves as the secondary back up of live data for the application. Data from the NFS is sent to tape
back-up twice weekly and stored at an offsite location. These tapes serve as a tertiary back-up.

ISS performs differential backups of the moveLINQ production database nightly and performs a
full tape backup weekly. The nightly backups are kept on-site for four weeks. The monthly full
backup tapes are sent to a long-term off-site facility for two years. The moveLINQ application is
tested annually using a table top exercise.

NGMS is responsible for system backup of GovTrip and maintains data in their Business Data
Warehouse for six years and three months.

Invoice Processing Platform (IPP) data is stored and backed-up on the storage area network
(SAN) and replicates every 5 minutes between EROC (East Rutherford Operational Center) and
Dallas. Federal Reserve Bank of Boston (FRBB) does a disaster recovery exercise for
contingency planning, typically in February, to test the failover of IPP from their hosting facility
in EROC to Dallas. The test ensures that the application successfully moved to Dallas, but does
not require agencies to point to a different IP address in Dallas to submit a file due to its manually
intensive nature.

Continuity of Operations
A fire alarm and sprinkler system that is managed, maintained, and tested by the building
management protects ARC and ISS facilities. Alarms are active 24 hours a day, 7 days a week,
and are tied to a local alarm services company for spontaneous notification. Sprinkler heads are
located in the ceiling of each room of the buildings. This is a “wet pipe” (always charged with
water) system with individual heads that discharge water.

In the event the main building becomes inoperable, network operations would be relocated to the
Kansas City Regional Operations Center (KROC) facility in accordance with the ISS data
center’s DRP. This facility employs a “warm site” strategy for recovery of network operations.

As part of the ARC BCP, should ARC facilities become unavailable, essential ARC personnel
will relocate to established telework locations to reestablish their essential functions.




                                                88               Other Information Provided by the
                                                                   Administrative Resource Center
